United States Department of Agriculture
Office of Inspector General

No. 65

May 2011




Office of Inspector General

Semiannual Report to Congress
October 1, 2010 – March 31, 2011




                                          First Half 2011
KEY OIG ACCOMPLISHMENTS IN THIS REPORTING PERIOD —
October 2010-March 2011
SUMMARY OF AUDIT ACTIVITIES	
Reports Issued	
      Number of Reports	                                                                              21
      Number of Recommendations	                                                                     113
Management Decisions Made	
      Number of Reports	                                                                               21
      Number of Recommendations	                                                                      133
Total Dollar Impact (Millions) of Management-Decided Reports	                                       $11.1
      Questioned/Unsupported Costs	                                                                  $5.0
      Funds To Be Put To Better Use	                                                                 $6.1
SUMMARY OF INVESTIGATIVE ACTIVITIES	
Reports Issued	                   182
Impact of Investigations	
      Indictments	199
      Convictions	249
      Arrests	516
Total Dollar Impact (Millions)	 $47.8
Administrative Sanctions	         134

OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2010)
    1) 	Interagency Communications, Coordination, and Program Integration Need Improvement
	      Related material can be found on pages 8-9 and 19.
    2) 	Implementation of Strong, Integrated, Internal Control Systems Still Needed
	      Related material can be found on pages 8-9 and 19-20.
    3) 	Continuing Improvements Needed in Information Technology Security
	      Related material can be found on page 18.
    4) 	Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
	      Related material can be found on page 5.
    5) 	Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment
	      No work was reported during this period.
    6) 	USDA Needs To Develop a Proactive, Integrated Strategy To Help American Producers Meet the Global Trade Challenge
	      No work was reported during this period
    7) 	Better Forest Service Management and Community Action Needed To Improve the Health of the National Forests and Reduce
        the Cost of Fighting Fires
	      Related material can be found on page 27.
    8) 	Improved Controls Needed for Food Safety Inspection Systems
	      Related material can be found on page 1-2.
    9) 	Implementation of Renewable Energy Programs at USDA
	      No work was reported during this period.
10) 	Implementation of the American Recovery and Reinvestment Act of 2009
	      Related material can be found on pages 12-13, 21 and 26-27.
Message from the Inspector General
I am pleased to provide the Semiannual Report to Congress for the Office of Inspector General (OIG), U.S. Department of
Agriculture (USDA), for the 6-month period ending March 31, 2011. As our statistics indicate, our overall accomplishments
during this period have been impressive. We conducted successful investigations and audits that led to 516 arrests, 249 convictions,
$47.8 million in recoveries and restitutions, 114 program improvement recommendations, and $11.1 million in financial
recommendations.
OIG continues to focus its work on ensuring the integrity of payments in USDA programs as well as the overall effectiveness of the
programs. During this period, OIG devoted a significant portion of its resources to supporting USDA’s effective implementation of
an estimated $28 billion in American Recovery and Reinvestment Act of 2009 (Recovery Act) funds. We have 38 Recovery Act
audit projects underway, with additional audit work scheduled for Fiscal Year (FY) 2012. OIG’s investigations program is also
supporting effective implementation of the Recovery Act by providing fraud awareness training and materials to USDA employees,
contractors, and grantees. The scope and effectiveness of our Recovery Act work would not be possible without the support of the
Administration and the resources provided by Congress.
This report summarizes the most significant OIG activities (including our Recovery Act work) during the period, organized
according to our strategic goals, as outlined in the OIG Strategic Plan for FYs 2010-2015:
σσ    Safety, Security, and Public Health—In one audit, we found that the Food Safety and Inspection Service (FSIS) was not
      testing for Escherichia coli O157:H7 (E. coli) in U.S. ground beef in a way that would give the public confidence that its food
      was safe; in another, we determined that FSIS needed to improve its readiness for responding to emergencies involving
      biological, chemical, or radiological contamination of food. Several investigations into threats and violence against OIG
      agents and other Federal employees resulted in significant prison sentences for the perpetrators, including one sentence of 40
      years in prison.
σσ    Integrity of Benefits—Investigations of participants in the Food and Nutrition Service’s (FNS) Supplemental Nutrition
      Assistance Program (SNAP) resulted in 80 convictions and $7.9 million in monetary results. Another OIG investigation
      disclosed a far-reaching conspiracy involving farmers, warehouse operators, insurance agents, and loss adjusters in North
      Carolina who concealed tobacco production and then subsequently filed false crop insurance claims. As a result of their
      involvement in this crop insurance scheme, 24 individuals have pled guilty to various crimes and restitution ordered to date
      exceeds $27 million.
σσ    Management Improvement Initiatives—The Recovery Act provided $3.8 billion in funds for sewer, storm water, and solid
      waste disposal systems in small cities and towns, but we found that the Rural Utilities Service (RUS) did not correctly process
      applications and provided one town with an unfair advantage over new applicants. Another audit found that FNS had made
      significant progress in reducing improper program payments in its food assistance programs.
σσ    Stewardship Over Natural Resources—OIG worked to help assure the American public that Recovery Act money is being
      spent to promote economic growth and create jobs. One of our audits found that grant recipients were claiming unsupported
      costs for Forest Service (FS) wildland fire management projects on State and private lands; another audit showed similar
      problems with grants related to road maintenance and decommissioning, bridge maintenance and decommissioning, and
      watershed restoration and ecosystem enhancement.
As Inspector General, I am deeply appreciative of USDA OIG staff members’ commitment and expertise—the accomplishments
reported here are the direct results of their dedicated work. Our successes are also due in large part to the continued support and
encouragement of USDA Secretary Thomas J. Vilsack, Deputy Secretary Kathleen Merrigan, and interested Committees and
Members of the Congress.




Phyllis K. Fong
Inspector General
Contents
 Safety, Security, and Public Health.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

 Integrity of Benefits. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

 Management Improvement Initiatives .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 18

 Stewardship Over Natural Resources .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 26

 Gauging the Impact of OIG .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29

 Abbreviations.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 42
                                                                  Goal 1




Safety, Security, and Public Health
OIG Strategic Goal 1:                                                  In the first half of FY 2011, we devoted 12 percent of our total
                                                                       direct resources to Goal 1, with 100 percent of these resources
Strengthen USDA’s ability to implement safety and                      assigned to critical-risk and high-impact work. A total of 100
security measures to protect the public health as                      percent of our audit recommendations under Goal 1 resulted
well as agricultural and Departmental resources                        in management decision within 1 year, and 76 percent of our
                                                                       investigative cases resulted in criminal, civil, or administrative
To help USDA and the American people meet critical
                                                                       action. OIG issued two audit reports under Goal 1 during this
challenges in safety, security, and public health, OIG provides
                                                                       reporting period. OIG’s investigations under Goal 1 yielded
independent audits and investigations in these areas. Our work
                                                                       21 indictments, 125 convictions, and $119,232 in monetary
addresses such issues as the ongoing challenges of agricultural
                                                                       results during this reporting period.
inspection activities, safety of the food supply, and homeland
security.



  Management Challenges Addressed UNDER GOAL 1
  σσ    Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goal 2)
  σσ    Implementation of Strong, Integrated, Internal Control Systems Still Needed (also under Goals 2, 3, and 4)
  σσ    Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
  σσ    Improved Controls Needed for Food Safety Inspection Systems
  σσ    USDA Needs To Develop a Proactive, Integrated Strategy To Help American Producers Meet the Global Trade Challenge



EXAMPLES OF AUDIT AND INVESTIGATIVE                                    findings and proposed corrective actions in response to our
WORK FOR GOAL 1                                                        recommendations.
                                                                       In Phase 2 of our planned work, OIG will expand upon
FSIS Needs To Improve How It Samples Beef and
                                                                       information presented in this first report, perform fieldwork
Tests for E. coli
                                                                       at beef slaughter plants, determine whether plants are testing
In response to a Congressional inquiry regarding a deadly              consistently, and determine if FSIS personnel are following
outbreak of E. coli in U.S. beef, OIG reviewed the tests FSIS          the agency’s sampling and testing procedures. (Audit Report
performs to detect this bacterium, and found that FSIS’ tests          24601-9-KC, Food Safety and Inspection Service: N-60 Testing
do not yield the precision that is reasonable for food safety          Protocol for E.coli O157:H7—Phase 1)
purposes. In the design of its tests, FSIS has not determined
the prevalence of E. coli, even though an adequate sampling            FSIS Needs To Improve the Readiness of the Food
method should begin with this information. Moreover, given             Emergency Response Network (FERN)
the likely low occurrence of E. coli in U.S. beef trim, FSIS must      Through a directive, the President established FERN to
collect more than the 60 pieces of beef it currently gathers from      integrate the Nation’s food testing laboratories at the local,
a production lot before it can reasonably state that a production      State, Federal, and tribal levels into a network able to respond
lot is contaminated or not. At present, if the contamination           to emergencies involving biological, chemical, or radiological
level is very low, FSIS is more likely to miss contamination           contamination of food. OIG’s review found that, although
than to detect it. OIG maintains that, whenever FSIS tests             FSIS has provided training and equipment and established
beef, its tests should be designed so that the American public         standardized diagnostic protocols, FSIS has not reached a
can have confidence in the results of those tests. OIG therefore       formal agreement on how the network will operate with
recommended that FSIS thoroughly reevaluate its sampling               the Food and Drug Administration (FDA), which is also
program for testing beef. FSIS generally agreed with our               responsible for operating FERN. Without this formal




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half            1
                                                                    Goal 1




agreement, FERN lacks the elements of an effective interagency           agent confronted the suspect, who responded by shooting at the
emergency network, including standard operating procedures,              special agent five times with a revolver. No one was injured.
sufficient staffing, and a clear strategic direction. OIG also           While in jail awaiting sentencing, the suspect threatened to
found that FSIS needs to ensure that the network’s laboratory            kill the prosecutor, her family, and the witnesses who testified
capacity is sufficient to respond to surges in case of emergencies       against him at his trial. A search of the suspect’s cell revealed an
and improve FERN’s readiness to prevent threats to the                   8-inch metal shank hidden in his mattress. In October 2010,
food supply by performing targeted food surveillance. Such               in the Eastern District of Arkansas, this man was sentenced
surveillance—for example, testing food served to schoolchildren          to serve 40 years’ incarceration after he was convicted on
as part of the school meal programs—would enable FSIS and                three felony counts of attempting to murder a Federal law
FDA to identify potential weaknesses within their network                enforcement officer, being a felon in possession of a firearm,
of laboratories. It would also provide State and local agencies          and using a firearm during a crime of violence. He is also
with a better understanding of the procedures used when                  wanted in connection with four home invasions in Arkansas
collecting and shipping samples—procedures that may not be               and two in Indiana. This investigation was conducted jointly
part of their normal routine. FSIS agreed with our findings              with the Bureau of Alcohol, Tobacco, Firearms, and Explosives,
and recommendations and is taking appropriate action. (Audit             the Federal Bureau of Investigation (FBI), and State and local
Report 24601-6-At, Food Emergency Response Network)                      authorities.

Agricultural Marketing Service (AMS) Needs Stronger                      Former FSIS Employee Imprisoned for Threatening
Controls To Ensure the Wholesomeness of Shell Eggs                       OIG Agents With Assault Weapon
Bearing USDA’s Grademark                                                 In February 2009, when OIG special agents went to the home
Due to the August 2010 recall of over 500 million shell eggs             of a former FSIS employee to investigate threats the employee
adulterated with Salmonella Enteritidis, which were believed             had made to assault his former supervisor, they were met by the
to have caused more than 1,000 people to become ill, OIG                 suspect brandishing an assault weapon. The suspect retreated
reviewed AMS’ procedures for inspecting shell eggs. Our fast             into his home, but OIG special agents arrested him 3 days later.
report disclosed that AMS requires its graders to cull affected          This individual was sentenced in December 2009 to serve 11
shell eggs to prevent their movement into commerce, but as               months of incarceration, followed by 24 months of probation,
the recall demonstrated, adulterated shell eggs were mistakenly          and to pay a fine of $1,000 for assaulting OIG special agents.
shipped to another facility where they were graded and sent
                                                                         After being released from incarceration, this individual was
to retailers. OIG recommended that AMS amend its current
                                                                         stopped for a traffic violation and found to be unlawfully in
procedures to ensure that graders identify the locations to
                                                                         possession of a firearm. In December 2010, in Federal Court
which adulterated products will be shipped and require AMS
                                                                         for the Southern District of Mississippi, he was sentenced to
shell egg graders at those locations to prevent adulterated shell
                                                                         serve 4 months’ prison time for violating his probation and
eggs from receiving the official USDA grademark. Our audit
                                                                         an additional 33 months for being a felon in possession of a
continues, looking at other issues regarding controls over shell
                                                                         firearm.
egg inspections. AMS agreed with our recommendation and is
taking appropriate corrective action. (Audit Report 50601-1-             Minnesota Man Fires a Pistol at an Animal and Plant
23 (1), USDA Controls Over Shell Egg Inspections)                        Health Inspection Service (APHIS) Employee
Arkansas Man Sentenced to 40 Years in Prison for                         While an APHIS Wildlife Service employee was carrying out
the Attempted Murder of OIG Special Agent and                            his official duties, he came under fire from a Minnesota man
Other Crimes                                                             with a handgun. OIG conducted an investigation of the
                                                                         incident and, in October 2009, the Pine County, Minnesota,
In April 2009, an off-duty OIG special agent in Arkansas                 County Attorney’s Office charged the suspect with one
assisted an elderly man who had been robbed and assaulted.               count of intentional discharge of a firearm and one count of
After securing medical attention for the victim, the special             intentionally pointing a gun at another. In January 2011,




2     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                                 Goal 1




the man pled guilty to one felony count of intentionally              sentenced in April 2010 to serve 36 months of probation and
discharging a firearm. Due to his extensive medical issues, he        ordered to pay nearly $2.1 million in restitution jointly and
was sentenced to serve 120 days of electronic home monitoring         severally with the owner. As we formerly reported, a contractor
followed by 60 months’ probation. The subject is prohibited           was also sentenced to serve 36 months of probation and
from using or possessing firearms or dangerous weapons while          ordered to pay a $2,000 fine and $42,000 in restitution. This
on probation.                                                         investigation was conducted jointly with the Defense Criminal
                                                                      Investigative Service and the U.S. Army Criminal Investigation
FS Law Enforcement Officer’s Life Threatened in the
                                                                      Command-Procurement Fraud Unit.
Line of Duty
In September 2010, an FS law enforcement officer was
                                                                      Florida Exporter Pleads Guilty to Using Falsified
threatened when he issued citations to a Washington State             USDA Seal and Logo To Export Cocoa and Chocolate
man for possession of marijuana and a firearm. During the             Products to Panama
OIG investigation the man admitted to threatening the FS law          An OIG investigation disclosed that the owner of a Florida
enforcement officer. In February 2011, in Federal Court for           company created false documents, including letter certificates
the Western District of Washington, the man pled guilty, was          purportedly issued by AMS, to export six shipments of cocoa
sentenced to 12 months’ probation, and was ordered to pay a           powder to Panama. These forged documents were used to
fine.                                                                 secure entry of the products into Panama and fraudulently
                                                                      attested to the wholesomeness of the products. For example,
Connecticut Company Agrees To Pay $150,000 for
                                                                      the Florida exporter used one such document to secure the
Selling Prohibited Food Products
                                                                      entry of approximately 19,000 pounds of chocolate products,
In Connecticut, a food distribution company sold prohibited           worth about $35,000. In February 2011, the exporter pled
chicken feet and other prohibited and restricted food items           guilty to one felony count of fraudulently and wrongfully
that it illegally labeled and mixed with other items imported         affixing the USDA seal and logo to a document. Sentencing is
from Thailand. As part of an agreement to avoid criminal              pending.
prosecution, the company agreed in September 2010 to
pay $150,000 to the Government. This investigation was                Major Cockfighting Ring Broken Up in the Pacific
conducted jointly with the U.S. Department of Homeland                Northwest—Drugs, Guns, and Cash Seized
Security.                                                             As the culmination of a 3-year joint operation conducted by
                                                                      OIG, the U.S. Drug Enforcement Administration, and several
Federal Court Orders Houston Company To Pay $15
                                                                      local police departments in Oregon and Washington, 51 people
Million Settlement in Procurement Fraud Scam and
                                                                      were arrested in March 2008 on charges of cockfighting,
Sentences the Company’s Owner and Others to Jail
                                                                      gambling, and interstate transportation in aid of racketeering.
In the Semiannual Report to Congress (SARC), First Half of FY         To date, 42 defendants have pled guilty to charges ranging
2010, OIG first reported that the owner and employees of              from cockfighting to distribution of controlled substances, and
a Houston food company forged export certificates to send             have received sentences from fines to 14 years’ imprisonment.
expired and non-expired food to Middle Eastern companies,             In November 2010, the last remaining defendant to be
including suppliers to U.S. troops, and conspired with a              adjudicated in this case pled guilty to felony charges of
transport company to inflate charges for delivering food and          cockfighting and drug trafficking in the District of Oregon.
other items. In November 2010, the food company and its               As a result of this investigation, law enforcement agents seized
owner entered into a civil settlement agreement with the U.S.         more than 50 firearms, 9.5 pounds of methamphetamine,
Attorney’s Office and agreed to pay $15 million to settle civil       $125,000 in cash, over 2 pounds of cocaine, 5 pounds of
charges relating to this matter. In December 2010, the Federal        marijuana, and over 130 marijuana plants.
Court for the Southern District of Texas sentenced the food
company’s owner to serve 24 months in jail and pay a $100,000
fine. The former purchasing agent for the food company was




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half       3
                                                                    Goal 1




Two California Brothers Sentenced for Participating                      Michigan Dog Fighter Convicted at Trial
in Animal Fighting Ventures                                              As part of OIG’s ongoing Michigan dog fighting investigations,
In early 2009, OIG and Santa Barbara County Animal Services              investigators identified a suspect in Montcalm County who
began an investigation into allegations that a Santa Barbara,            bought, sold, and bred pit bull dogs for fighting purposes. In
California, resident was selling fighting cocks to individuals in        February 2009, OIG personnel, along with State and local law
Mexico, Hawaii, and the Philippines. When OIG, along with                enforcement and animal control agencies, executed a search
local law enforcement authorities, executed a search warrant at          warrant and found dogs with fighting scars, dog fighting trade
the residence of one of the defendants, investigators discovered         publications, contracts for dog fighting matches, photographs,
approximately 800 to 1,000 birds. At a storage facility, law             and electronic media related to dog fighting. The man was
enforcement personnel also found cockfighting paraphernalia.             arrested in April 2010 on charges of animal fighting and
The defendant and his brother were charged with multiple                 cruelty to animals and was convicted at trial in December
State animal fighting violations, and were sentenced to 3 years’         2010. The Montcalm County Circuit Court sentenced this
probation, fined $375, and ordered to reduce the number of               individual to 12 months’ incarceration and ordered him to pay
birds and to destroy all contraband.                                     approximately $26,000 in fines and restitution.




4    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                                Goal 1




GOVERNMENTWIDE ACTIVITIES—GOAL 1                                              tabletop exercises; an incident command training
                                                                              exercise in Michigan; a meeting at an automobile
Review of Legislation, Regulations, Directives,                               plant to discuss threats to the Minnesota economy,
and Memoranda                                                                 infrastructure, and law enforcement; and a meeting
                                                                              to plan and coordinate the role of the emergency
σσ   National Organic Program. OIG reviewed and
                                                                              response team in a Foot and Mouth Disease outbreak.
     commented on the Notice of Draft Guidance
     for Accredited Certifying Agents and Certified                      σσ   During this reporting period, OIG agents
     Operations for use by the organics industry concerning                   participated in other safety and security-related
     commingling and contamination prevention, as well                        working groups and task forces, including:
     as outdoor access for organic poultry. This guidance                     •	 Agriculture Intelligence Working Group, which
     was developed in response to an OIG audit regarding                         discussed bio-defense and international food
     oversight of the program. Our comments emphasized                           safety with representatives from APHIS,
     the need for more specific guidance on how organic                          FSIS, the FBI, the U.S. Army, the U.S.
     operations should document their commingling and                            Department of State, FDA, and the U.S.
     contamination prevention procedures, and for the                            Department of Health and Human Services;
     development of specific criteria on outdoor access                       •	 Arrowhead Counter-Terrorism Task Force, a group of
     for all organic operations that handle live animals.                        regional law enforcement and emergency response
                                                                                 providers, led by the FBI field office in Duluth,
Participation on Committees, Working Groups,                                     Minnesota. The group meets monthly for training
and Task Forces                                                                  sessions and sharing information on various terrorist
                                                                                 organizations, as well as related topics, such as crisis
σσ   FBI’s National Joint Terrorism Task Force. One OIG                          response scenarios (Minnesota/Wisconsin area);
     special agent is assigned full-time to the national task
                                                                              •	 Anti-Terrorism Advisory Councils in many judicial
     force, and other special agents work with local task
                                                                                 districts, including the Northern District of Illinois;
     forces. The national task force special agent attends
                                                                                 the Eastern District of Michigan; the Eastern
     threat briefings and provides terrorist intelligence
                                                                                 and Western Districts of Missouri; the Northern
     products to OIG and other USDA agencies and offices.
                                                                                 and Southern Districts of Iowa; and the Districts
     Overall, OIG’s participation provides a conduit for
                                                                                 of Colorado, Kansas, and Minnesota. These
     sharing critical law enforcement intelligence and
                                                                                 councils are umbrella organizations comprised
     has broadened the FBI’s and other law enforcement
                                                                                 of local, State, and Federal agencies and private
     agencies’ knowledge of how to conduct criminal
                                                                                 sector security representatives which work with
     investigations connected to food and agriculture.
                                                                                 the U.S. Attorney’s Office for their geographic
σσ   FBI’s Joint Interagency Agroterrorism Working Group.                        area to disrupt, prevent, and prosecute terrorism
     OIG’s emergency response team continues to                                  through intelligence-sharing, training, strategic
     participate in this working group, which develops                           planning, policy review, and problem solving;
     protocols and procedures for the FBI, APHIS, and
                                                                              •	 Northstar Task Force, a working group in the
     OIG to coordinate their response to agroterrorism.
                                                                                 upper Midwest to enhance communication
σσ   Emergency Preparedness Planning Workgroups/Exercises.                       and coordination with the U.S. Marshal’s
     Members of the emergency response team and other                            Service and other law enforcement agencies
     OIG special agents participate in area working groups                       during multi-agency operations; and
     and numerous multi-agency, scenario-based exercises
                                                                              •	 Organized Crime Drug Enforcement Task Forces in
     throughout the country to plan for coordinated
                                                                                 various locations, including in Arizona where OIG
     responses in emergency events. During this reporting
                                                                                 recently assisted in a multi-agency investigation
     period, OIG participated in two highway and
                                                                                 focused on gun-running across the Mexican border.
     motor-carrier food and agriculture supply chain




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half                5
                                                                  Goal 1




    ONGOING AND PLANNED REVIEWS FOR GOAL 1                                 σσ    review of appeals of humane handling
                                                                                 noncompliance records (FSIS),
    Topics that will be covered in ongoing or planned reviews
                                                                           σσ    USDA’s response to colony collapse disorder
    under Goal 1 include:
                                                                                 (Agricultural Research Service (ARS), National
    σσ     controls over experimentation with                                    Institute of Food and Agriculture (NIFA),
           genetically engineered animals (APHIS),                               APHIS, Risk Management Agency (RMA)),
    σσ     implementation of select agent or toxin                         σσ    USDA’s ability to respond to agricultural
           regulations—followup (APHIS),                                         emergencies (Homeland Security),
    σσ     effectiveness of the plant pest program (APHIS),                σσ    implementation of country of origin labeling (AMS),
    σσ     plant protection and quarantine                                 σσ    National Organic Program—organic milk (AMS),
           preclearance program (APHIS),                                   σσ    FS firefighter certification process (FS),
    σσ     keeping foreign animal diseases out                             σσ    National Organic Program’s list of allowed
           of the United States (APHIS),                                         and prohibited substances (AMS),
    σσ     agricultural import permits (APHIS),                            σσ    retailer handling of organic products (AMS),
    σσ     identification and prevention of prohibited products            σσ    oversight of procurement of poultry products
           from entering the United States (APHIS),                              for Federal feeding programs (AMS),
    σσ     USDA’s emergency response plan for                              σσ    USDA’s periodic residue testing program
           Foot and Mouth Disease (APHIS),                                       for organic products (AMS),
    σσ     oversight of research facilities (APHIS),                       σσ    verifying credentials of veterinarians employed
    σσ     in-commerce surveillance (FSIS),                                      or accredited by USDA (FSIS, APHIS), and
    σσ     State inspection programs (FSIS),                               σσ    Methicillin-resistant Staphylococcus
    σσ     implementation of the public health information                       Aureus in meat (FSIS, AMS, ARS).
           system for domestic inspection (FSIS),                          We will cover the findings and recommendations from
    σσ     followup on 2007 and 2008 audit initiatives (FSIS),             these efforts in future semiannual reports as we complete
    σσ     assessment of inspection personnel shortages
                                                                           the relevant audits and investigations.
           in processing establishments (FSIS),
    σσ     N-60 testing protocol on beef trim                              ONGOING AND PLANNED REVIEWS FOR GOAL 1
           for E. coli–phase 2 (FSIS),                                     UNDER RECOVERY ACT FUNDS
    σσ     inspection of swine slaughter facilities (FSIS),
                                                                           A topic that will be covered in an ongoing or planned
    σσ     controls over food allergen labeling (FSIS),                    review under Goal 1 under the Recovery Act includes:
    σσ     food defense verification procedures (FSIS),                    σσ    Recovery Act rehabilitation of flood control dams
    σσ     food defense verification procedures at domestic                      (Natural Resources Conservation Service (NRCS)).
           meat, poultry, and egg establishments (FSIS),
                                                                           The findings and recommendations from this project will
    σσ     USDA controls over shell egg inspections                        be covered in future semiannual reports.
           (FSIS, AMS, APHIS),




6        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                                  Goal 2




Integrity of Benefits
OIG Strategic Goal 2:                                                  In addition, OIG staff has engaged in training and outreach
                                                                       initiatives through presentations to professional organizations
Reduce program vulnerabilities and strengthen                          involving State, local, and independent audit groups. OIG
program integrity in the delivery of benefits to                       investigators are working to ensure the integrity of Recovery
program participants                                                   Act programs by investigating potential fraud as warranted,
                                                                       pursuing prosecution where needed, and implementing a
OIG conducts audits and investigations to ensure or restore
                                                                       Recovery Act whistleblower investigation program. We
integrity in the various benefit and entitlement programs of
                                                                       continue to work closely with the Recovery Board and
USDA, including a variety of programs that provide payments
                                                                       other Inspector General offices to coordinate analytic and
directly and indirectly to individuals or entities. The size
                                                                       investigative work into potential Recovery Act fraud. To
of these programs is daunting: SNAP alone accounts for
                                                                       increase fraud awareness, investigators have participated in 16
approximately $50 billion in benefits annually, while well
                                                                       meetings, outreach activities, and training sessions with our
over $20 billion annually is spent on USDA farm programs.
                                                                       Federal, State, and local partners during this reporting period,
Intended beneficiaries of these programs include the working
                                                                       and have participated in more than 100 such events since the
poor, hurricane and other disaster victims, and schoolchildren,
                                                                       law’s enactment. We have adjusted our hotline procedures
as well as farmers and producers. These programs support
                                                                       to expeditiously process complaints related to the Recovery
nutrition, farm production, and rural development.
                                                                       Act and to track them closely in order to meet the timeframes
The $28 billion in funding USDA received under the Recovery            specified in the law. We also search for trends in the problems
Act is being administered in a number of areas, including farm         being reported in the use of Recovery Act funds.
loans, watershed programs, supplemental nutrition assistance,
                                                                       In the first half of FY 2011, we devoted 50 percent of our total
wildland fire management, and several rural development
                                                                       direct resources to Goal 2, with 94 percent of these resources
programs (such as rural housing, rural business, water and
                                                                       assigned to critical/high-impact work. A total of 100 percent
waste disposal, and broadband). The Recovery Act also
                                                                       of our audit recommendations under Goal 2 resulted in
provided OIG with $22.5 million (to remain available until
                                                                       management decision within 1 year, and 74 percent of our
September 30, 2013) for “oversight and audit of programs,
                                                                       investigative cases resulted in criminal, civil, or administrative
grants, and activities funded by this Act and administered by
                                                                       action. OIG issued nine audit reports and one Recovery Act
the Department of Agriculture.”
                                                                       Fast Report under Goal 2 during this reporting period. OIG’s
OIG began working immediately with USDA and the                        investigations under Goal 2 yielded 166 indictments, 100
inspector general community, as well as the Government                 convictions, and about $28.1 million in monetary results
Accountability Office and the Recovery Accountability and              during this reporting period.
Transparency Board (Recovery Board), to carry out these
oversight responsibilities. Our Recovery Act oversight plan
includes proactive, short-term, and long-term audit and                    Management Challenges Addressed UNDER GOAL 2
investigative work. It can be found on our website at http://
                                                                           σσ   Interagency Communications, Coordination, and
www.usda.gov/oig/recovery/OIGSTIMULUSPLAN.pdf.
                                                                                Program Integration Need Improvement (also under
OIG has completed audit reports and fast reports that                           Goal 1)
reviewed development of USDA agency program guidance and                   σσ   Implementation of Strong, Integrated, Internal Control
requirements, internal controls, eligibility criteria, and USDA                 Systems Still Needed (also under Goals 1, 3, and 4)
compliance activities related to Recovery Act requirements.                σσ   Implementation of the Recovery Act (also under
Those issued during this reporting period are described in this                 Goals 3 and 4)
semiannual report. We anticipate that our audit efforts will
continue through FY 2012.




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half           7
                                                                    Goal 2




EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR                             OIG found that RHS field staff may have continued to
GOAL 2                                                                   distribute disaster assistance from the Single Family Housing
                                                                         Program to recipients even though some of those recipients
North Carolina Farmers and Insurance Employees                           possibly received proceeds from other private sources (such as
Sentenced in Crop Insurance Fraud Investigation                          insurance companies) to repair damage caused by disasters.
Working jointly with the RMA-Special Investigations Branch               In addition to possibly distributing assistance to those who
and the Internal Revenue Service (IRS)-Criminal Investigation            had received payments from private sources, OIG found that
Branch, OIG found that a large number of farmers in North                RHS officials did not correct program deficiencies identified
Carolina concealed their production and then subsequently                in our prior two audits—9 of 24 recommendations from our
filed false crop insurance claims based on non-existent                  prior audits were not addressed because RHS officials did not
losses. This was a far-reaching conspiracy, involving farmers,           think corrective actions were necessary since they had no plans
warehouse operators, insurance agents, and loss adjusters, all of        to provide emergency rental assistance again in the future.
whom assisted in filing false claims and concealing the farmers’         RHS officials agreed with all of this report’s recommendations
actual production. To date, as a result of their involvement             for corrective action. (Audit Report 04601-19-Ch, Rural
in this crop insurance scheme, 24 individuals have pled guilty           Development Controls Over Rural Housing Service Disaster
to various crimes in Federal court for the Eastern District of           Assistance Payments)
North Carolina, and the following sentencing actions occurred            APHIS Needs To Correct Problems With Payments
during this reporting period:                                            Issued To Florida Citrus Producers Due to Citrus
σσ    A crop insurance agent was sentenced to 30 months in               Canker
      prison and 3 years of probation after he pled guilty to
                                                                         In 1995, when citrus canker—a disease that affects citrus trees
      charges of conspiracy to make materially false statements and
                                                                         and fresh citrus fruit—was identified in south Florida and
      conspiracy to commit money laundering. He was ordered
      to pay $16.6 million in restitution, and forfeit $366,307.         began affecting both residential properties and commercial
                                                                         groves—USDA implemented three different programs to
σσ    A tobacco buyer pled guilty to the same violations
                                                                         assist affected citrus growers. APHIS implemented the
      and was sentenced to 18 months in prison and
                                                                         Citrus Canker Lost Production Program and Citrus Canker
      3 years of probation. In addition to paying
      $10.3 million in joint and several restitution, the                Tree Replacement Program to compensate eligible Florida
      tobacco buyer was also ordered to forfeit $647,139.                commercial citrus growers for lost production and tree losses,
                                                                         while RMA modified one of its insurance products—the
σσ    A loss adjuster was sentenced to 1 year in prison,
      followed by 2 years of probation, after pleading guilty
                                                                         Florida Fruit Tree Pilot Crop Insurance Program—so that
      to charges of making false statements and aiding and               growers could be indemnified for citrus canker tree losses.
      abetting. The court also imposed a fine of $158,000.               From November 21, 2004, to November 20, 2005, APHIS,
                                                                         through its two programs, made $474 million in payments
σσ    A farmer was sentenced to 60 months of probation, fined
      $3,000, and ordered to pay $41,820 in restitution after            to growers, and RMA paid growers (through its approved
      pleading guilty to conspiracy to make false statements in          insurance providers) $100.8 million for citrus canker tree
      connection with the Federal Crop Insurance Program.                losses. OIG’s audit found coordination problems between the
                                                                         USDA agencies implementing these programs, as well as with
σσ    A tobacco warehouseman was sentenced to 48 months
      in prison, followed by 36 months of probation after                how USDA agencies coordinated with the IRS. APHIS did not
      pleading guilty to conspiracy to launder money.                    coordinate with RMA to determine the amount of indemnity
      The court also imposed a fine of $10,000.                          payments growers had already received before APHIS calculated
                                                                         its payments—an error that resulted in a total of $1.1 million
USDA Rural Housing Service (RHS) Needs To
                                                                         in erroneous payments. Moreover, APHIS did not report to
Strengthen Its Controls Over Housing Assistance
                                                                         the IRS $290.9 million in Citrus Canker Tree Replacement
Paid to Victims of Disasters                                             Program payments from FY 2001 to 2007. Since citrus trees
When disasters displace people from their homes, RHS                     are a capital asset, these payments could have resulted in capital
provides eligible applicants with housing assistance; however,           gains, which should have been reported to the IRS. APHIS




8     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                                     Goal 2




officials generally agreed with the report’s recommendations              to take steps to strengthen its control structure for future
for corrective action. (Audit Report 50099-46-At, USDA                    implementation of ECP. During the initial onsite inspection
Payments for 2005 Citrus Canker Tree Losses)                              of producers’ fields, FSA employees did not always determine
                                                                          the type and extent of the damage the producer sustained. In
The Farm Service Agency (FSA) Needs To Improve
                                                                          addition, FSA employees stated that they did not complete
Its Overall Administration of the Biomass Crop
                                                                          cost estimates for 75 of the 156 ECP applications they were
Assistance Program (BCAP) To Prevent Program                              responsible for because they lacked the technical expertise
Abuse                                                                     needed to estimate the costs associated with many repairs.
OIG’s review of the Biomass Crop Assistance Program’s                     Without completing cost estimates or determining the extent of
(BCAP) Collection, Harvest, Storage, and Transportation                   damage, FSA paid $559,650 in ECP funds without assurance
(CHST) program identified wide-ranging problems in the                    that these funds were used for eligible restoration costs. Finally,
program’s operation. Our Fast Report disclosed that despite               since FSA county employees did not have a baseline against
spending over $243 million to support renewable crops that                which to compare producers’ invoices at the end of the ECP
could be used for fuel, FSA did not institute a suitable system to        application process, they did not exclude ineligible expenses
provide oversight and prevent the abuse of the program. This              and practices for some ECP applications. FSA generally
review identified potential schemes aimed at circumventing                agreed with our recommendations to revise ECP procedures
the intent of CHST program agreement terms and guidelines.                for completing onsite inspections and assessing damages.
For example, three biomass suppliers and conversion facilities            Also, FSA is working to address our recommendations for
circumvented poorly written agreements to obtain payments                 strengthening controls over county employee participation
to which they were not entitled. These problems occurred                  and producers who prematurely begin repairs. (Audit Report
because FSA, in an effort to quickly implement the program                50601-16-KC, Farm Service Agency Emergency Disaster
in compliance with a presidential directive, did not develop a            Assistance for 2008 Floods: Emergency Conservation Program)
handbook, specialized forms, or a computer support system
that was suited to the specific requirements of the CHST
                                                                          NRCS Needs To Ensure That Its State Offices
program. FSA also left its field personnel without adequate
                                                                          Reimburse Emergency Watershed Protection (EWP)
guidance and oversight controls to detect, identify, and take
                                                                          Costs Consistently
action against potential schemes or devices. Due to these                 Due to extensive flooding in the Midwest, hurricanes in the
problems, FSA implemented a program that resulted in                      Gulf region, and ice storms in Kentucky during 2008 and
inequitable treatment of program participants, improper                   2009, NRCS received about $490 million for EWP post-
payments, and reduced scope for oversight and accountability.             disaster recovery activities. The funds were used to restore
The agency generally agreed with our recommendations and                  water channels, remove debris, stabilize stream banks, and
has started corrective actions. OIG will roll up these issues in          repair levees in the affected States. OIG’s review of a sample
a final report on BCAP. (Audit Report 03601-28-KC (1) and                 of these projects found that NRCS successfully administered
(2), Farm Service Agency Biomass Crop Assistance Program                  the recovery portion of EWP in the aftermath of these natural
Controls over Collection, Harvest, Storage, and Transportation            disasters, correctly prioritized which projects it would fund, and
Matching Payments Program)                                                appropriately responded to recommendations made in a 2007
                                                                          EWP audit. However, the NRCS State offices did not always
FSA Needs To Improve Controls for Future
                                                                          reimburse costs for technical services (i.e., project design and
Implementations of the Emergency Conservation                             construction oversight) consistently. OIG recommended that
Program                                                                   NRCS take steps to ensure more consistent compensation of
FSA’s Emergency Conservation Program (ECP) provides                       these costs. NRCS generally agreed with the recommendations
emergency cost-share and technical assistance to producers                and is implementing appropriate corrective actions. (Audit
when their land and property is damaged by winds, floods,                 Report 10601-6-KC, Natural Resources Conservation Service
hurricanes, or other natural disasters. After the 2008 flooding           Emergency Disaster Assistance: Emergency Watershed
in the Midwest, OIG reviewed FSA’s implementation of ECP                  Protection Program)
in Iowa, Missouri, and Indiana and found that FSA needed




                                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half         9
                                                                    Goal 2




Texas Cattle Association Members Repay $397,893 in                       based on false borrower income certifications, fraudulent pay
Hurricane Rita-Related Livestock Indemnity Funds                         statements, forged application signatures, and altered credit
                                                                         scores. These bogus documents were subsequently provided
In August 2006, six members of a South Texas cattle association
                                                                         to Rural Development for loan guarantees. Between 2003
applied for and received $397,893 in FSA Livestock Indemnity
                                                                         and August 2008, approximately 40 of these loans defaulted,
Payments for cattle deaths they falsely claimed to be related
                                                                         resulting in Rural Development paying out over $2.3 million in
to Hurricane Rita. In August 2009, in the Southern District
                                                                         guarantees.
of Texas, all six members were charged with conspiracy and
false claims relating to their scheme to defraud the program.            For their role in this scheme, four mortgage company
In October 2010, the six members entered into the pre-trial              employees were charged in U.S. District Court, Eastern District
diversion program administered by the U.S. Attorney’s office.            of Michigan. Two mortgage processors have already been
The U.S. Attorney’s office agreed to defer prosecution of this           sentenced to 2 years’ supervised release and were ordered to
matter for 12 months in return for $397,893 in restitution.              pay restitution of $654,500 and $206,475, respectively. The
                                                                         branch manager and his brother, who was the assistant branch
Missouri Man Sentenced to Prison for Selling                             manager, pled guilty in March 2011 to making false statements
Mortgaged Grain                                                          on loan applications. Both individuals are facing potentially
A Missouri man made false statements to FSA regarding                    lengthy periods of incarceration and restitution ranging from
certified farm-stored loans and, as a result, received at least          $925,000 to $2 million.
$735,494 in loans to which he was not entitled. Even though
                                                                         Two Individuals Sentenced for Misleading
the man repaid the loans, the U. S. Attorney’s office felt that
he would have placed USDA at significant risk if he had
                                                                         Investigators Looking Into Multi-Million-Dollar
defaulted on the loans. In July 2010, the man was indicted in
                                                                         Broadband Loan Scheme
the Eastern District of Missouri on two counts of making false           In an update to an investigation reported in the SARC, First
certifications. He later pled guilty and was sentenced to serve          Half of FY 2009 and the SARC, Second Half of FY 2010, two
6 months in Federal prison and fined $4,200.                             individuals were sentenced for obstructing the investigation of a
                                                                         scheme to fraudulently obtain disbursements from a
Mississippi Rancher Imprisoned for Stealing Cattle                       $3.3 million RUS broadband loan. In March 2002, RUS
At the request of the U.S. Attorney’s office, OIG began an               approved a $3.3 million loan to a West Virginia corporation
investigation that revealed that a Mississippi rancher stole nine        to construct a wireless broadband system for areas in Ohio and
head of cattle and transported them to a Louisiana stockyard             West Virginia. The corporation then fraudulently disbursed
to be sold—the suspect was arrested when he returned to the              RUS loan funds based on phony invoices submitted for
auction barn to retrieve the sales proceeds. In November 2010,           payment and also paid loan funds to an Ohio company where
in Federal court for the Southern District of Mississippi, the           former principals of the West Virginia corporation became
rancher was sentenced to serve 13 months’ incarceration and              employed after submitting their resignations. The matter was
was ordered to pay $1,010 in restitution. In a related State             investigated jointly by OIG, the IRS, and the West Virginia
prosecution, the State of Mississippi sentenced the rancher to           Legislature’s Commission on Special Investigations.
serve 24 months of incarceration for stealing other cattle in
                                                                         In June 2010, the former chairman of the board of the West
Mississippi.
                                                                         Virginia corporation pled guilty to obstruction of justice for
Michigan Mortgage Company Personnel Defraud                              withholding information from investigators about the use
Rural Development Guaranteed Loan Program                                of the fraudulently obtained funds. He was sentenced in
Between 2001 and 2003, employees of a Michigan mortgage                  February 2011, in U.S. District Court, Southern District of
company issued 271 RHS Section 502 guaranteed single family              West Virginia, to 3 years’ probation, including 4 months’ home
home loans, valued at over $38 million. OIG’s investigation              confinement, and ordered to pay a $3,000 fine. In July 2010,
disclosed that at least 63 percent of the loans reviewed were            the chief financial officer of the Ohio company was found
                                                                         guilty of obstructing a Federal audit by intentionally providing




10     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                                   Goal 2




false information. He was sentenced, also in February 2011,                   Service agents executed four search warrants at a restaurant
in the same Federal court, to 4 years’ probation, including                   authorized to accept SNAP benefits from recipients
6 months’ home confinement, and ordered to pay a fine of                      in exchange for hot meals, as well as at the restaurant
$15,000.                                                                      owner’s home. They arrested the owner and seized over
                                                                              $360,000 from multiple accounts. The investigation
SNAP Trafficking                                                              disclosed that the owner caused more than $1.3 million
A significant portion of OIG’s investigative resources are                    in SNAP benefits to be redeemed using an electronic
                                                                              benefit transfer-point of sale (EBT-POS) terminal
dedicated to ensuring the integrity of SNAP by combating the
                                                                              registered to her restaurant by depleting multiple EBT
practice of exchanging benefits for cash known as “trafficking.”
                                                                              cards of their balances one cent at a time. When the
In the first half of FY 2011, OIG has concluded the following
                                                                              owner failed to report to her pre-sentencing interviews,
SNAP-related investigations and prosecutions:                                 she was subsequently arrested again and remanded into
σσ    Michigan Retailers Sentenced for SNAP Trafficking—A                     custody. In February 2011, in U.S. District Court, Central
      joint investigation with the FBI determined that a small                District of California, she was sentenced to 37 months’
      convenience store in Wyoming, Michigan, trafficked                      incarceration, followed by 2 years’ supervised release, and
      approximately $400,000 in SNAP and Women, Infants,                      was ordered to pay more than $1 million in restitution.
      and Children (WIC) benefits from November 2005 through            σσ    St. Louis Store Owner Sentenced To Pay $244,000 in
      July 2009, and conspired with another retailer in Ypsilanti,            Restitution for SNAP Fraud—From February 2006 to
      Michigan, to illegally move more than $300,000 overseas                 December 2006, a St. Louis grocery store owner exchanged
      through the operation of an illegal money remittance                    SNAP benefits for cash and other non-grocery items. The
      business known as hawala. The two brothers who owned                    store and owner were permanently disqualified from SNAP
      the store were sentenced in February 2011, in U.S.                      participation in December 2007. The owner later pled
      District Court, Western District of Michigan, on charges                guilty to one count of illegal acquisition of food stamp
      of conspiracy, food stamp fraud, WIC fraud, operating an                benefits, and was sentenced in December 2010, in U.S.
      unlicensed money transmitting business, and structuring                 District Court, Eastern District of Missouri, to serve 60
      financial transactions to evade reporting requirements;                 months’ probation and pay $244,349 in restitution.
      they were each sentenced to 60 months’ imprisonment,
                                                                        σσ    New Orleans Store Owner and Employee Exchanged
      3 years’ supervised release, and $401,670 in restitution.
                                                                              SNAP Benefits for Narcotics and Cash—An OIG
σσ    Brooklyn Store Owner Ordered To Serve 2 Years in Jail                   investigation determined that the owner of a food store
      and Pay $1.4 Million in Restitution for SNAP Fraud—                     in New Orleans and his employee illegally exchanged
      From September 2007 to September 2009, a Brooklyn food                  SNAP benefits for cash and heroin and had distributed
      store exchanged a total of $2,664 in SNAP benefits for $1,875           100 grams or more of heroin within 1,000 feet of a
      in cash in a series of trafficking transactions. Subsequent             middle school. In June 2010, they were both charged in
      investigation and analysis of financial data demonstrated               U.S. District Court, Eastern District of Louisiana, with
      that the store’s fraudulent SNAP transactions actually                  multiple felonies, including distribution of a controlled
      amounted to approximately $1.4 million. In September                    substance, access device fraud, and conspiracy. The
      2009, in U.S. District Court, Eastern District of New York,             employee pled guilty, and was sentenced in February 2011
      the store owner and her son were charged with conspiracy                to 24 months in prison and ordered to pay restitution
      to commit SNAP trafficking. The store owner pled guilty                 of $16,432. Sentencing is pending for the store’s owner.
      and was sentenced to 24 months’ imprisonment and                        This case resulted from a referral from a Joint Terrorism
      ordered to pay restitution of approximately $1.4 million                Task Force and was worked jointly with the FBI.
      and forfeit $105,474 in seized assets. The owner’s son
      fled, but was apprehended in Florida in July 2010. He
                                                                        Mississippi Resident Falsely Claims Benefits From
      pled guilty in December 2010; his sentencing is pending.          Hurricane Katrina
σσ    California Restaurant Owner Sentenced To Serve 37                 In October 2010, in U.S. District Court, Southern District
      Months in Prison and Pay $1.1 Million in Restitution              of Mississippi, a Mississippi SNAP recipient was sentenced
      for SNAP Fraud—In November 2008, OIG and Secret                   to serve 36 months of probation and ordered to pay $2,000




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half          11
                                                                       Goal 2




in restitution after she was shown to have falsely claimed to               of day care attendees each day. In October 2010, the woman
the Federal Emergency Management Agency (FEMA) that                         was sentenced in Federal Court, District of Nebraska, to serve
Hurricane Katrina had displaced her from her residence. The                 36 months in Federal prison for making false claims and 24
SNAP documents she had filled out proved she actually resided               months in prison for identity theft, to be served concurrently.
elsewhere and had incurred no damages from the hurricane.                   The prison term is to be followed by 36 months’ probation.
                                                                            The woman was also ordered to pay $20,256 in restitution to
Husband and Wife Sentenced to Prison for Hurricane
                                                                            FNS and $99,537 to the Nebraska State Health and Human
Katrina-Related Fraud
                                                                            Services.
A husband and wife falsely claimed that they were victims
of Hurricane Katrina and, as a result, illegally received
                                                                            Director of North Carolina Day Care Sponsoring
FEMA benefits to which they were not entitled. Subsequent                   Organization Sentenced to Prison and $242,405 in
investigation determined that, prior to the hurricane, the                  Restitution for CACFP Fraud
couple had also illegally received SNAP benefits to which they              A joint investigation by OIG and the North Carolina State
were also not entitled. In November 2010, the couple pled                   Bureau of Investigation determined that the executive director
guilty in the U.S. District Court, Southern District of Illinois,           of a day care sponsoring organization in North Carolina
to having made false statements in order to receive SNAP                    submitted false claims and willfully misapplied CACFP funds.
benefits and Hurricane Katrina FEMA benefits. The wife                      The organization submitted overstated claims to the North
was sentenced to serve 21 months in Federal prison and was                  Carolina State Department of Health and Human Services and
ordered to pay restitution and fines totaling $12,180 for SNAP              received more than $240,000 in CACFP funds to which the
benefit fraud. The husband was sentenced to serve 4 months                  organization was not entitled. In January 2011, the executive
in Federal prison and was fined $400. The couple was further                director was sentenced in Federal Court, Middle District
ordered to jointly pay $19,814 in restitution to FEMA.                      of North Carolina, to up to 18 months’ imprisonment, 60
                                                                            months’ probation, and ordered to pay $242,405 in restitution.
Oklahoma Woman Convicted of Defrauding FNS, the
U.S. Social Security Administration, and the                                Florida Day Care Provider Convicted of Aggravated
U.S. Department of Health and Human Services                                White Collar Crime
Working jointly with the U.S. Social Security Administration,               A joint investigation conducted with the Florida Department
the U.S. Department of Health and Human Services, and                       of Financial Services-Public Assistance Fraud Unit disclosed
the Oklahoma Department of Human Services, OIG found                        that a day care owner/operator fraudulently submitted fictitious
that a welfare recipient from Bowlegs, Oklahoma, falsely                    documents in order to inflate the number of children enrolled
represented herself as single and failed to report all her available        at her two day care centers in Florida. She also inflated
income in order to fraudulently receive SNAP, Social Security,              reimbursement information submitted in State computer
and Medicaid benefits to which she was not entitled. In                     systems. In January 2011, the day care owner/operator was
December 2010, the woman was sentenced in U.S. District                     convicted in the Eighth Judicial Circuit of Florida of felony
Court, Western District of Oklahoma, to serve 48 months of                  aggravated white collar crime and was ordered to pay $79,484
probation and ordered to pay $121,483 in restitution.                       in restitution.

Nebraska Day Care Provider Sentenced to Prison for
                                                                            RECOVERY ACT REVIEWS
Making False Claims and Using False Social Security
Numbers                                                                     RHS Needs To Ensure That Borrowers Receiving
As reported in the SARC, Second Half of FY 2010, the owner/                 Single Family Housing Loans Are Eligible
operator of an Omaha, Nebraska, day care center pled guilty in              The Recovery Act included $133 million to finance over $10
July 2010 to making false claims and using false Social Security            billion in single family housing loan guarantees in rural areas.
numbers to claim reimbursement through USDA’s Child and                     There are, however, restrictions on who may receive these loan
Adult Care Food Program (CACFP) for a fictitious number                     guarantees—borrowers cannot, for instance, exceed certain




12      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                                     Goal 2




income requirements. OIG reviewed a representative sample                 Agency, American Recovery and Reinvestment Act Direct Farm
of 100 loans that RHS guaranteed and identified 28 loans                  Operating Loans—Phase 2)
where lenders had not fully complied with Federal regulations
                                                                          Rural Business-Cooperative Service (RBS) Needs
or Recovery Act directives in determining the eligibility of the
                                                                          To Recover Government Funds From a Lender Who
borrowers. For example, loan guarantees were approved for
borrowers who exceeded required income limits, did not appear
                                                                          Abused the Business and Industry Guaranteed Loan
able to repay their loans, and purchased homes with swimming
                                                                          Program
pools. Based on the results from this sample, 27,206 loans                At the request of RBS’ National office, OIG initiated audits
(over 33 percent of the portfolio) may be ineligible, with a              to review five loans that a lender made as part of USDA’s
projected total value of $4 billion. OIG issued a fast report             business and industry guaranteed loan program. OIG found
regarding this matter to alert RD officials timely and to ensure          that the lender misrepresented certain critical facts about
agency management immediately address the issue by taking                 the borrower to obtain loan guarantees, neglected to service
appropriate corrective actions.                                           the loans properly, and put Recovery Act funds at risk of
                                                                          default. The lender’s misrepresentations rendered two of the
Although Rural Development officials agreed that 10 of the
                                                                          five Government loan guarantees unenforceable. As a result,
28 loans questioned may be ineligible, and have agreed to
                                                                          RBS agreed to recover over $7 million in questioned costs.
take some corrective actions to address the internal control
                                                                          In addition, RBS addressed OIG’s concerns about funding
that allowed these errors to occur, they disagreed on 18 of the
                                                                          borrowers associated with gambling operations, which is
28 loans. We continue to work with Rural Development to
                                                                          prohibited by the Recovery Act. This report summarizes our
address these concerns. To date, this audit is ongoing. At the
                                                                          five reviews of problematic individual loans made by this
conclusion of this audit, these issues as well as any other issues
                                                                          borrower. In addition, note the grand total in questioned costs
that may be identified will be complied into a final report.
                                                                          mentioned above includes questioned costs identified in prior
Recovery Act Fast Report (Audit Report 04703-2-Ch (1), Rural
                                                                          audit reports and those costs have been discussed in previously
Development Guaranteed Single Family Housing Loans Made
                                                                          issued SARCs. (Audit Report 34099-8-Te, Rural Development
by Lenders to Ineligible Borrowers)
                                                                          Rural Business-Cooperative Service Review of Lender with
FSA Can Improve Its Controls Over Its Direct Loan                         Business and Industry Guaranteed Loans)
Making Process                                                            Arizona Rural Development Applicant Falsely Applied
The Recovery Act authorized up to $173 million for FSA to                 for Recovery Act Funds
make direct operating loans to help America’s farmers and
                                                                          RHS received approximately $1.2 billion in Recovery Act
ranchers finance their farms. A sample of these loans found
                                                                          funding to directly finance loans for low income and very low
that FSA generally made direct operating loans to eligible
                                                                          income individuals living in rural areas. In February 2010,
producers and for eligible purposes. Sometimes, however, FSA
                                                                          an Arizona applicant applied for and was approved to receive
employees involved in processing these loans did not follow all
                                                                          approximately $114,000 from the Rural Development Direct
of FSA’s procedures, but only in three cases were the deficiencies
                                                                          Loan Program. OIG found, however, that in order to obtain
noted serious enough that FSA should have questioned making
                                                                          the loan and in an effort to disguise the actual cause of her
loans totaling $321,500. Since all three of the borrowers
                                                                          poor credit rating, the applicant provided multiple false and
OIG questioned had repaid their loans or were in the process
                                                                          fictitious documents to Rural Development, including false
of repaying them, these minor errors did not justify formal
                                                                          Social Security income documentation as well as a false police
recommendations and corrective actions. FSA farm loan
                                                                          report alleging that the applicant was a victim of identity theft.
program officials agreed that, in the future, minor deficiencies
                                                                          Based on OIG’s investigative findings documenting the false
of this sort could result in loans being issued to borrowers who
                                                                          information, Rural Development permanently withdrew the
might be unable to repay their loans. They stated that they
                                                                          applicant’s claim, avoided payment, and saved approximately
are considering implementing automated controls to prevent
                                                                          $114,000 of Recovery Act funds
these kinds of errors. (Audit Report 03703-2-Te, Farm Service




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half          13
                                                                Goal 2




 GOVERNMENTWIDE ACTIVITIES—GOAL 2                                        σσ   NIFA’s Senior Management Retreat. As part of our
                                                                              outreach activities, OIG auditors participated in
 Review of Legislation, Regulations, Directives,                              NIFA’s monthly senior management retreat in February
 and Memoranda                                                                2011. To help with developing better working
                                                                              relationships between OIG and NIFA, we provided
 σσ    7 Code of Federal Regulations Part 400, RMA proposed
                                                                              an overview of the IG’s authorities, responsibilities,
       a rule to amend the General Administrative Regulations
                                                                              and mission, the OIG complaint hotline, the audit
       by adding a new subpart Y. The new regulations that
                                                                              process, and a question and answer session.
       RMA is proposing would provide a good performance
       refund to producers who have demonstrated favorable               σσ   Operation Talon. OIG began Operation Talon
       crop insurance performance. OIG reviewed the                           in 1997 to catch fugitives, many of them violent
       proposed rule and did not have any comments.                           offenders, who are current or former SNAP recipients.
                                                                              Since its inception, Operation Talon has led to the
 σσ    Final Rule for BCAP. The BCAP final rule was issued
                                                                              arrests of thousands of fugitive felons. During the
       on October 27, 2010. We reviewed the final rule
                                                                              first half of FY 2011, OIG agents conducted Talon
       to determine if it addressed our formal comments
                                                                              operations that resulted in more than 200 arrests.
       provided in April 2010 and our informal concerns
                                                                              OIG combined forces with Federal, State, and
       that we discussed with program managers and agency
                                                                              local law enforcement agencies to arrest fugitives in
       officials throughout the course of our review. We
                                                                              Alabama, Arizona, California, Minnesota, Missouri,
       found that while the agency had addressed some
                                                                              Pennsylvania, and Utah, for offenses including
       of our concerns in the final rule, including the
                                                                              assault, burglary, larceny, robbery, sex offenses,
       issues of a payment option and inconsistencies in
                                                                              weapons violations, forgery and counterfeiting, drug
       reduction of annual payments, we continue to have
                                                                              charges, and offenses against family and children.
       concerns regarding the biomass conversion facilities’
       performance and additional concerns regarding overall             σσ   Hurricane Katrina/Rita Task Forces. Work continues
       management controls of the program. These concerns                     on investigations opened by OIG special agents
       will be further detailed in our upcoming audit report.                 who have participated in multiagency task forces
                                                                              focusing on false claims or statements submitted
                                                                              to obtain Federal benefits for these disasters.
 Participation on Committees, Working Groups,                                 Through the end of this reporting period, OIG
 and Task Forces                                                              has opened 115 cases in which FNS, FSA, Rural
                                                                              Development, and other Federal agencies have
 σσ    OIG Provided Technical Assistance to the National
                                                                              been defrauded. During this time, 147 individuals
       Institute of Food and Agriculture (NIFA). OIG auditors
                                                                              have been indicted, 124 have been convicted, and
       continue to provide technical assistance to NIFA
                                                                              monetary results have totaled nearly $2.4 million.
       during its financial and administrative review of one
       of its grantees on the island of Oahu, Hawaii. NIFA               σσ   Bridge Card Enforcement Team. OIG investigators work
       has a long history of awarding competitive research                    with this team to investigate criminal SNAP and WIC
       and facility grants to this institution. In FY 2010,                   violations. Team members include the Michigan State
       NIFA sought OIG’s technical assistance addressing                      Police and IRS investigators. The FBI and Michigan
       a series of complaints from grantee employees and                      Department of Human Services-Office of Inspector
       others, as well as an OIG hotline complaint. During                    General have also helped during search warrant
       this past period, OIG met with and provided                            operations. Since 2007, our teamwork has resulted
       feedback to NIFA staff to help strengthen and solidify                 in 105 arrests and 128 search warrants served in
       NIFA’s initial findings in its review of the grantee.                  Michigan. The U.S. Attorney’s Offices for the Eastern
                                                                              and Western Districts of Michigan and the Michigan
                                                                              Attorney General’s Office are pursuing criminal
                                                                              prosecutions, with cases so far resulting in 82 guilty




14    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
     pleas. Sentences have included lengthy incarceration            prosecutors, planning joint training operations,
     periods and $19.9 million in court-ordered fines                and improving communication and coordination
     and restitution. The U.S. Attorney’s Offices have               among Inspectors General (IG) in Minnesota. The
     initiated forfeitures totaling over $3 million.                 council sponsored a scenario-based training exercise
σσ   Mortgage Fraud Task Forces. OIG investigators                   in March at the local U.S. Postal Service OIG office.
     participate in mortgage fraud task forces in              OIG agents also participate in other task forces and
     California, Michigan, and New Hampshire, in               working groups related to benefits fraud, including:
     addition to a national mortgage fraud working group
     that meets monthly in Washington, D.C. These              σσ    U.S. Attorney’s Bankruptcy Fraud Working
     task forces identify trends, share information, and             Group in the Western District of Missouri,
     coordinate investigations related to mortgage fraud.      σσ    East African Area Studies Group in Minnesota
     The task forces are headed by representatives from              and the Somali Working Group in California,
     U.S. Attorney’s offices and the FBI. They include         σσ    Human Trafficking Task Force in Minnesota,
     staff from Inspector General offices and other
                                                               σσ    Identity Fraud Task Force in the
     program offices of many Federal agencies, including
                                                                     District of New Hampshire,
     the U.S. Department of Housing and Urban
     Development, the U.S. Department of Homeland              σσ    Law Enforcement Coordinating Committee
     Security, the Financial Crimes Enforcement                      Conferences in Colorado, Iowa, Missouri,
     Network, the Federal Reserve Board, the U.S. Social             Nebraska, South Dakota, and Wyoming,
     Security Administration, the IRS, and the Securities      σσ    Four Corners Investigator Group, consisting of
     and Exchange Commission, as well as local district              Federal, State, and local fraud investigators from
     attorney’s offices and police departments.                      Arizona, Colorado, Utah, and New Mexico,
σσ   American Recovery and Reinvestment Act                    σσ    Suspicious Activity Report Working Groups
     Working Groups, including groups operating                      in locations including Alabama, Maine,
     in Ohio and Virginia. In addition, OIG is                       Massachusetts, Michigan, Minnesota, New
     one of nine Federal agencies participating on                   Hampshire, North Carolina, and Oregon,
     the Recovery Board Referral Task Force in the
                                                               σσ    Witness/Victim Task Force, sponsored by the U.S.
     Pacific Northwest, which is conducting a joint
                                                                     Attorney’s Office for the District of Minnesota; and
     investigation based on a Recovery Board referral.
                                                               σσ    Social Services Fraud Working Group, coordinated by
σσ   Western Region Inspectors General Council,
                                                                     the U.S. Attorney’s Office for the District of Oregon.
     Northwest Inspectors General Council, and other
     Western Region Working Groups, including the
     North Sound Regional Intelligence Group, the              ONGOING AND PLANNED REVIEWS FOR GOAL 2
     South Sound Regional Intelligence Group, and              Topics that will be covered in ongoing or planned reviews
     the Tukwila Working Group. OIG investigators              under Goal 2 include:
     work with these councils and groups to develop
     Recovery Act training, share information,                 σσ    accuracy of statistics produced by the National
     discuss ongoing and potential work of mutual                    Agricultural Statistics Service (NASS),
     interest, and strengthen working relationships.           σσ    Veterinary Medicine Loan Repayment
     In addition, Western Region OIG investigators                   Program (NIFA),
     organize and participate in meetings to enhance
                                                               σσ    controls over biomass research and
     coordination between Federal, State, and local law
                                                                     development grants (NIFA),
     enforcement agencies in the Pacific Northwest.
                                                               σσ    citrus indemnity payments resulting from 2005
σσ   Minnesota Inspector General Council. This group
                                                                     Florida hurricanes (RMA),
     was recently established to discuss working with




                                                            USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half           15
                                                                 Goal 2




 σσ    oversight of approved insurance providers’                         σσ    vendor monitoring in the WIC Program (FNS),
       quality control process (RMA),                                     σσ    CACFP followup audit (FNS),
 σσ    verification of new producers (RMA),                               σσ    controls over the Biorefinery Assistance Program (RBS),
 σσ    approved insurance provider compliance                             σσ    Rural Economic Development Loan Program (RBS),
       with standard reinsurance requirements for
                                                                          σσ    Rural Energy for America Program (RBS),
       documentation to support claims (RMA),
                                                                          σσ    Rural Cooperative Development Grant
 σσ    compliance with RMA’s inconsistent yield
                                                                                Program eligibility and grant funds
       and added land procedures (RMA),
                                                                                use for a Missouri entity (RBS),
 σσ    oversight of organic crop insurance (RMA),
                                                                          σσ    rural rental housing construction costs (RHS),
 σσ    controls over prevented planting claims (RMA),
                                                                          σσ    rural rental housing project
 σσ    approved insurance providers’ reduction                                  management companies (RHS),
       of inconsistent yields (RMA),
                                                                          σσ    rural rental housing maintenance cost
 σσ    followup of FSA’s compliance review process (FSA),                       and inspection procedures (RHS),
 σσ    verification of income eligibility for                             σσ    controls over disaster assistance payments (RHS),
       program payments (FSA),
                                                                          σσ    Midwest management company (RHS),
 σσ    Biomass Crop Assistance Program—
                                                                          σσ    National School Lunch Program—food
       project areas (FSA),
                                                                                service management companies and cost
 σσ    Biomass Crop Assistance Program—Collection,                              reimbursable contracts (FNS),
       Harvest, Storage, Transport (FSA),
                                                                          σσ    Farmers’ Market Promotion Program (AMS),
 σσ    Dairy Economic Loss Assistance
                                                                          σσ    National School Lunch Program—California (FNS),
       Payment Program (FSA),
                                                                          σσ    controls over FY 2010 food distribution programs—
 σσ    automated controls over payment limitation
                                                                                purchase of fresh fruit and vegetables (FNS),
       direct attribution rule (FSA),
                                                                          σσ    reasonableness of price determinations for firm fixed
 σσ    Noninsured Crop Disaster Assistance Program (FSA),
                                                                                price contracts awarded by USDA (multiagency), and
 σσ    Farm Storage Facility Loan Program (FSA),
                                                                          σσ    comparison of U.S. Social Security
 σσ    2008 Farm Bill’s changes to the                                          Administration death master list with USDA
       payment limitation (FSA),                                                benefit databases (multiagency).
 σσ    Conservation Reserve Program’s soil rental rates (FSA),
                                                                          We will cover the findings and recommendations from
 σσ    USDA Emergency Relief/Disaster Assistance for                      these efforts in future semiannual reports as we complete
       past and future natural disasters (NRCS),                          the relevant audits and investigations.
 σσ    USDA’s controls over the Farm and
       Ranchland Protection Program (NRCS),
 σσ    NRCS’ use of equitable relief and waivers
       of improper payments (NRCS),
 σσ    controls over the 2009 Agricultural Water
       Enhancement Program (NRCS),
 σσ    review of Congressionally earmarked funds
       in FY 2010 appropriations (NRCS),
 σσ    oversight of agreements reached in program complaints
       (Office of Assistant Secretary—Civil Rights),




16    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                              Goal 2




ONGOING AND PLANNED REVIEWS FOR GOAL 2                                 σσ    controls over rural community facilities’ direct
UNDER RECOVERY ACT FUNDS                                                     grant and loan programs—phase 2 (RHS),
                                                                       σσ    controls over eligibility determinations
Topics that will be covered in ongoing or planned reviews                    for single family housing guaranteed loan
under Goal 2 under the Recovery Act include:                                 Recovery Act funds—phase 2 (RHS),
σσ    Trade Adjustment Assistance for Farmers Program                  σσ    Recovery Act performance measures and
      (Foreign Agricultural Service FAS, FSA, NIFA),                         job creation for single family housing
σσ    controls over aquaculture grant Recovery                               guaranteed loans—phase 3 (RHS),
      Act funds—phase 2 (FSA),                                         σσ    evaluation of loss claims related to Recovery
σσ    Recovery Act supplemental agricultural                                 Act funds distributed through single family
      disaster assistance programs (FSA),                                    housing guaranteed loans (RHS),
σσ    Recovery Act Emergency Watershed                                 σσ    Broadband initiatives (RUS), and
      Protection Program floodplain easements—                         σσ    Food Distribution Program on Indian Reservations
      small land parcels (NRCS),                                             Equipment Review—phase 2 (FNS).
σσ    Recovery Act Emergency Watershed                                 The findings and recommendations from these efforts will
      Protection Program floodplain easements—                         be covered in future semiannual reports as the relevant
      phases 2 and 3 (NRCS),
                                                                       audits and investigations are completed.
σσ    controls over outsourcing of SNAP call centers (FNS),
σσ    Recovery Act impacts on SNAP—
      phases 1 and 2 (FNS),
σσ    State fraud detection efforts for SNAP (FNS),
σσ    improper payments in SNAP (FNS),
σσ    identifying improper payments in CACFP (FNS),
σσ    oversight and control of FS Recovery
      Act activities (FS),
σσ    rural business enterprise grants—phase 2 (RBS),
σσ    Business and Industry Guaranteed
      Loan Program—phase 2 (RBS),
σσ    Business and Industry Guaranteed
      Loan Program—phase 3 (RBS),
σσ    lending institutions’ use of Recovery Act funds
      for housing guaranteed loans (RHS),
σσ    single family housing direct loan
      effectiveness—phase 3 (RHS),
σσ    Recovery Act servicing of single family
      housing direct loans (RHS),
σσ    single family housing direct loans—loan file
      compliance reviews (RHS),




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half        17
                                                                   Goal 3




Management Improvement Initiatives
OIG Strategic Goal 3:                                                   EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
                                                                        GOAL 3
Support USDA in implementing its management
improvement initiatives                                                 USDA Needs To Take Action To Resolve Longstanding
                                                                        IT Weaknesses
OIG conducts audits and investigations that focus on such
                                                                        Each year, OIG provides the Office of Management and Budget
areas as improved financial management and accountability,
                                                                        (OMB) with the results of our Federal Information Security
information technology (IT) security and management,
                                                                        Management Act (FISMA) testing. In 2009, we reported
research, real property management, employee integrity, and
                                                                        that in order to mitigate continuing material weaknesses,
the Government Performance and Results Act. Our work in
                                                                        the Department should rethink its policy of attempting to
this area is vital because the Department is entrusted with
                                                                        simultaneously achieve numerous goals in short timeframes.
$128 billion in public resources annually. The effectiveness and
                                                                        OIG recommended that the Department and its agencies,
efficiency with which USDA manages its assets are critical.
                                                                        working together, define and accomplish one or two critical
In the first half of FY 2011, we devoted 31 percent of our              objectives prior to proceeding to the next set of priorities.
total direct resources to Goal 3, with 97 percent of these
                                                                        During FY 2010, we saw some evidence that the Department
resources assigned to critical/high-impact work. A total of
                                                                        was coordinating its activities in the manner we recommended;
98 percent of our audit recommendations under Goal 3
                                                                        however, we did not observe that the Department was
resulted in management decision within 1 year, and 97
                                                                        making measurable progress in approaching this problem
percent of our investigative cases resulted in criminal, civil,
                                                                        collaboratively. OIG continues to consider this change in
or administrative action. OIG issued 10 audit reports and 1
                                                                        direction the best course of action for the Department’s IT
Recovery Act fast report under Goal 3 during this reporting
                                                                        security program.
period. OIG’s investigations under Goal 3 yielded 9
indictments, 20 convictions, and $19.4 million in monetary              While USDA has made improvements in its IT security in
results during this reporting period.                                   the last decade, many longstanding weaknesses remain. OIG
                                                                        made a total of 19 recommendations, noting the areas where
                                                                        the Department needs to develop policy and procedures and
 Management Challenges Addressed UNDER GOAL 3                           enforce existing policies to ensure agency compliance. Efforts
                                                                        have been made to mitigate the weaknesses noted during this
 σσ     Implementation of Strong, Integrated, Internal Control          FISMA review. The Office of the Chief Information Officer
        Systems Still Needed (also under Goals 1, 2, and 4)
                                                                        (OCIO) has provided sufficient details regarding its corrective
 σσ     Continuing Improvements Needed in IT Security                   action plans to resolve 16 of the 19 audit recommendations.
 σσ     Implementation of the Recovery                                  We continue to work with the OCIO to appropriately resolve
        Act (also in Goals 2 and 4)                                     the findings and recommendations we reported. (Audit Report
                                                                        50501-2-IT, Office of the Chief Information Officer Fiscal Year
                                                                        2010 Federal Information Security Management Act)

                                                                        FNS Continues Its Efforts To Reduce Its Rate of
                                                                        Improper Payments
                                                                        In Executive Order 13520, the President charged Federal
                                                                        agencies with reducing and preventing improper payments
                                                                        through increased transparency and improved agency
                                                                        accountability. The Executive Order further mandated that
                                                                        Federal agencies with high-priority programs submit an annual
                                                                        report to their respective inspector generals for review. For




18     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                                    Goal 3




FY 2010, OMB identified FNS’ SNAP and National School                         the reestimate process and controls over the monitoring of
Lunch Program (NSLP) as high-priority programs. OIG                           employee access authorities for the Single Family Housing
reviewed FNS’ report and found that FNS had made significant                  Direct Loan Program. Our consideration of compliance
progress in reducing improper payments. However, we                           with laws and regulations disclosed one instance of
recommended that USDA continue to work with OMB to                            noncompliance related to Anti-Deficiency Act violations
                                                                              for RUS’ Broadband Program. Rural Development
set reasonably aggressive improper payment reduction targets;
                                                                              and OIG are in the process of reaching agreement
document negotiations between USDA and OMB regarding
                                                                              on the action necessary to correct these deficiencies.
reduction target determinations; and reassess NSLP’s improper                 (Audit Report 85401-18-FM, Rural Development’s
payment rate determination model to evaluate how precision                    Financial Statements for Fiscal Years 2010 and 2009)
can be determined and to modify the model, as necessary, in
                                                                         σσ   FS—Unqualified Opinion on FY 2010/2009 Financial
order to update the annual rate. FNS concurred with all of our
                                                                              Statements. An independent certified public accounting
recommendations. (Audit Report 50024-2-FM, Calendar Year                      firm audited FS’ financial statements for FY 2010/2009
2010 Executive Order 13520, Reducing Improper Payments,                       and found that FS’ financial position and related
Accountable Official Report Review)                                           budgetary concerns were presented fairly in accordance
                                                                              with generally accepted accounting principles. The firm
USDA FY 2010/2009 Consolidated Financial
                                                                              issued an unqualified opinion, but it also identified six
Statements                                                                    significant deficiencies in areas such as FS’ (1) information
USDA’s FY 2010/2009 consolidated financial statements                         technology controls environment, (2) period-end accrual
received an unqualified opinion. Our consideration of                         processes, (3) coordination of intra-agency efforts to address
internal controls over financial reporting identified two                     financial reporting requirements, (4) management review
material weaknesses in USDA’s overall financial management                    of credit card transactions and controls over the programs,
and information technology security and controls. Our                         (5) internal controls for revenue-related transactions, and
                                                                              (6) procedures for reviewing third-party processed
consideration of compliance with laws and regulations disclosed
                                                                              transactions. The auditors did not consider any
instances of noncompliance relating to the Federal Financial
                                                                              of the noted significant deficiencies to be material
Management Improvement Act of 1996 (FFMIA) and the
                                                                              weaknesses, nor did they disclose any reportable
Anti-Deficiency Act. The Department agreed with OIG’s                         instances of noncompliance with laws, regulations,
recommendation to resolve these deficiencies and is in the                    contracts, and grant agreements. Agency officials
process of taking appropriate corrective action. (Audit Report                agreed with the accounting firm’s recommendations.
50401-70-FM, Department of Agriculture’s Consolidated                         (Audit Report 08401-11-FM, Forest Service’s Financial
Financial Statements for Fiscal Years 2010 and 2009)                          Statements for Fiscal Years 2010 and 2009)

In addition to auditing the Department’s consolidated financial          σσ   Commodity Credit Corporation (CCC)—Unqualified
statements, OIG performed (or oversaw the contract) audits                    Opinion on FY 2010/2009 Financial Statements. An
                                                                              independent certified public accounting firm audited
of six USDA agencies’ financial statements. Details of these
                                                                              CCC’s financial statements for FY 2010/2009 and issued
financial audits follow:
                                                                              an unqualified opinion, finding that CCC’s financial
σσ    Rural Development—Unqualified Opinion on FY                             position and related budgetary concerns were presented
      2010/2009 Financial Statements. Rural Development                       fairly and in accordance with generally accepted accounting
      received an unqualified opinion on its financial statements             principles. Concerning CCC’s internal control structure
      for FY 2010 and FY 2009, and the audit concluded                        over financial reporting, the auditor identified three
      that Rural Development’s financial position and related                 significant deficiencies in CCC’s financial management
      budgetary concerns were presented fairly and in accordance              system functionality, information security controls,
      with generally accepted accounting principles. Concerning               and controls over agency financial reporting. The firm
      Rural Development’s internal controls over financial                    considered the first significant deficiency to be a material
      reporting, OIG identified two significant deficiencies in               weakness. Additionally, the accounting firm disclosed
      Rural Development management’s review and controls over                 noncompliance with FFMIA and Anti-Deficiency
                                                                              Act violations. Agency officials are working with the




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half          19
                                                                     Goal 3




     independent auditor to resolve these deficiencies. (Audit            FS Needs To Improve How It Approves Contracts at Its
     Report 06401-25-FM,Commodity Credit Corporation’s                    Rocky Mountain Research Station
     Financial Statements for Fiscal Years 2010 and 2009)
                                                                          In response to a hotline complaint alleging that FS’ Rocky
σσ   NRCS—Disclaimer of Opinion on FY 2010/2009
                                                                          Mountain Research Station mismanaged a $7 million contract
     Financial Statements. An independent certified public
     accounting firm audited NRCS’ financial statements for               to develop computer software modeling the behavior, effect,
     FY 2010/2009 and issued a disclaimer of opinion. The                 and chemistry of fire, OIG did not find evidence that FS staff
     firm identified seven material weaknesses in NRCS’                   or contractor employees engaged in fraud. However, during the
     accounting controls over (1) undelivered orders, (2) the             administration of this contract, a FS employee violated various
     revenue and unfilled customer orders process, (3) accrued            Federal acquisition regulation requirements. For example,
     expenses, (4) financial reporting, (5) property, plant,              the employee chose a contract typically used to procure
     and equipment, (6) general and application controls                  information technology equipment and software to procure
     environment, and (7) controls over purchase and fleet card           fire model research and development services, and was able to
     transactions. The firm also disclosed that NRCS did not              make improper contracting decisions without detection because
     fully comply with FFMIA. NRCS generally acknowledged
                                                                          management was not properly overseeing her work. Due to
     the significant deficiencies discussed in this report and is
                                                                          her mistakes, FS did not award the contract in the best interest
     implementing corrective action. (Audit Report 10401-
                                                                          of the Government and did not have reasonable assurance that
     04-FM, Natural Resource and Conservation Service
     Financial Statements for Fiscal Years 2010 and 2009)                 the services were procured in the most cost-effective manner.
                                                                          We recommended that FS implement a contract review process
σσ   Federal Crop Insurance Corporation (FCIC)/RMA—
                                                                          to ensure that the contracts the station awards comply with
     Unqualified Opinion on FY 2010/2009 Financial
     Statements. An independent certified public accounting
                                                                          Federal acquisition regulation requirements. FS generally
     firm audited FCIC/RMA’s financial statements for FY                  agreed with our recommendations and is taking action to
     2010/2009 and issued an unqualified opinion. The                     correct problems at Rocky Mountain Research Station. (Audit
     firm found no weaknesses related to internal controls                Report 08017-5-Hy, Review of Forest Service’s Contract for
     or noncompliances with laws and regulations to                       Fire Modeling Programs)
     report. (Audit Report 05401-19-FM, Federal Crop
     Insurance Corporation/Risk Management Agency’s
                                                                          Former FSA Program Technician Sentenced for Theft
     Financial Statements for Fiscal Years 2010 and 2009)                 of Funds
σσ   FNS—Unqualified Opinion on FY 2010/2009 Financial                    As noted in the SARC, Second Half of FY 2010, an FSA
     Statements. OIG audited FNS’ financial statements                    program technician in Montana destroyed at least six USDA
     for FY 2010/2009 and issued an unqualified opinion                   forms in order to increase her husband’s loan deficiency
     on the agency’s financial statements. Although FNS                   payment from CCC by $14,680. The woman admitted that
     reported no material weaknesses under FFMIA, OIG                     she defrauded FSA and resigned her position with FSA in
     found that it should have reported a weakness related to             December 2009. The woman subsequently pled guilty to two
     a Departmentwide material weakness on unliquidated                   felony counts of theft of Government funds and acts affecting
     obligations. FNS also reported that it corrected the seven
                                                                          a financial interest, and was sentenced in November 2010 to
     significant deficiencies relative to a minor agency financial
                                                                          serve 24 months’ probation and pay a $1,200 fine.
     system, which we had identified and reported in FY 2009.
     OIG agreed, but found that the agency was not in full                FAS Employee Falsified Earnings Statements To
     compliance with the Improper Payments Information                    Receive Housing and Urban Development Assistance
     Act of 2002. Agency officials generally agreed to take
     appropriate action in response to our recommendations.               An FAS employee living in Maryland altered her USDA
     (Audit Report 27401-35-Hy, Food and Nutrition Service’s              earnings statements in order to fraudulently receive Federal
     Financial Statements for Fiscal Years 2010 and 2009)                 housing assistance payments from 2006 through 2010. The




20    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                                    Goal 3




employee pled guilty in the Circuit Court for Prince George’s            in the project approval process. RUS agreed to remove the
County, Maryland, to making false statements on her subsidy              unexpended grant funding from the project in question, but
application. In January 2011, she was sentenced to                       did allow the borrower to use the monies to make additions
24 months’ unsupervised probation and ordered to pay $5,327              to the previous project, which is allowable under the program
in restitution. This investigation was worked jointly with the           requirements. In early 2011, RUS conducted a review at the
U.S. Department of Housing and Urban Development OIG.                    Maine State office to determine if other instances similar to the
                                                                         Farmington rollover of grant funds had occurred. RUS found
APHIS Entomologist in Arizona Pleads Guilty To
                                                                         no additional instances of unliquidated rollover of grant funds
Pawning APHIS Lab Equipment
                                                                         in its review, and held training for its Maine State office staff
An OIG investigation disclosed that an APHIS entomologist                to emphasize that unused funds should not be carried over
in Phoenix, Arizona, removed approximately $180,000 of                   to future projects. Recovery Act Fast Report (Audit Report
scientific equipment from several labs he was working in and             09703-1-At (1), Rural Development American Recovery and
pawned them at local pawn shops. He used the lab equipment               Reinvestment Act Controls Over Water and Waste Disposal
to secure cash loans and later repaid the loans. In addition, the        Loans and Grants, Inappropriate Use of Unexpended Grant
employee misused his Government-issued credit card to take a             Funds)
cash advance from a casino. When interviewed, the employee
admitted he had a gambling problem and was subsequently
                                                                         FSA Needs To Ensure Accurate Information Relating
placed on indefinite suspension without pay. OIG special                 To Its Recovery Act Expenditures
agents recovered all the scientific lab equipment from the pawn          The Recovery Act provided FSA with $50 million for salaries
shop. In May 2010, the employee pled guilty in the U.S.                  and expenses to assist in maintaining and modernizing
District Court, District of Arizona, to theft of Government              information technology within the agency. Based on our
property. He was sentenced in January 2011 to 3 years’                   review of FSA’s expenditures, OIG found that the agency’s
probation and ordered to pay $13,691 in restitution. He also             purchases were within the guidelines mandated by the Recovery
resigned from his position.                                              Act; however, FSA did not always follow the Recovery Act’s
                                                                         reporting requirements. Specifically, FSA reported incorrect
RECOVERY ACT REVIEWS                                                     amounts on the Recovery Act weekly progress report from
                                                                         January to April 2010, because it based the amounts it reported
RUS Improves How It Rolls Over Water and Waste                           on the dates that invoices were received and submitted to
Disposal Funds From One Grant Project to Another                         another agency for payment, rather than the date when
Our audit of the $3.8 billion in funds the Recovery Act                  payment was actually made. Furthermore, three recipients
provided for sewer, storm water, and solid waste disposal                of Recovery Act funds did not submit information to
systems in small cities and towns found that RUS’ Maine                  FederalReporting.gov for the quarter ending March 31, 2010.
Rural Development Office inappropriately funded a Water                  It is the awarding agency’s responsibility to monitor recipient
and Waste Disposal Loan and Grant Program Recovery Act                   reporting, but FSA, the funding agency, did not review the
project, counting $79,000 of unexpended grant funds from                 awarding agency’s compliance with the Recovery Act. OIG
a previous project as part of the borrower’s application for a           recommended that FSA ensure that it comply with the
new loan. RUS’ action provided the town of Farmington with               reporting requirements of the Recovery Act; FSA agreed, and is
an unfair advantage over new applicants and violated grant               addressing our recommendations. (Audit Report 03703-1-IT,
limitation requirements. OIG recommended that RUS recover                American Recovery and Reinvestment Act Spending for Farm
the $79,000 in rolled-over grant funding from Farmington                 Service Agency Information Technology)
and also determine if there were any other such discrepancies




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half         21
                                                               Goal 3




 GOVERNMENTWIDE ACTIVITIES—GOAL 3                                       σσ   Council of the Inspectors General on Integrity and
                                                                             Efficiency (CIGIE) Legislation Committee. OIG
 Review of Legislation, Regulations, Directives,                             continues to serve on the CIGIE Legislation
 and Memoranda                                                               Committee, which is responsible for providing
                                                                             regular and ongoing communication regarding
 σσ    Proposed revisions to Appendix C, Part I and
                                                                             legislative issues and other matters of common
       Part II of OMB Circular A-123, Management’s
                                                                             interest between Congress and CIGIE. In addition
       Responsibility for Internal Controls. We reviewed
                                                                             to regular meeting attendance, OIG personnel
       and provided comments on the draft revision to
                                                                             monitored and tracked all IG-related legislation
       OMB Memorandum M-06-23, or OMB A-123,
                                                                             that was introduced in Congress and kept affected
       Appendix C, Part I and Part II. The revision will
                                                                             IGs notified about those bills’ progress.
       provide guidance to agencies for implementing the
       requirements of the Improper Payments Elimination
       and Recovery Act of 2010, which amended the                      Participation on Committees, Working Groups,
       Improper Payments Information Act of 2002 and                    and Task Forces
       generally repealed the Recovery Auditing Act. We                 σσ   Acreage/Crop Reporting Streamlining Initiative (ACRSI).
       generally concurred with the proposed guidance.                       OIG participates in ACRSI, which is a Department-
 σσ    OMB Request for Review of its Consolidated FISMA                      wide initiative intended to served as a “common USDA
       Implementation Report. OMB received a legislative                     framework for producer commodity reporting in
       request to consolidate and report, by agency, the                     support of USDA programs.” ACRSI’s objectives are
       annual FISMA results for 2010. OIG was asked                          to (1) develop data standards for collection, reporting
       to provide comments on this report. Our review                        and maintenance of USDA program data and a multi-
       found that the OMB’s report contained the results of                  agency governance process; (2) publish the standards
       information security and privacy performance metrics                  to support their adoption in agriculture service
       reported submitted via Cyberscope, an OMB online                      providers systems and technologies to assist producers
       portal. Regarding the metrics reported by OMB,                        in meeting USDA requirements; (3) establish a process
       we commented that we could not check OMB’s                            to share and leverage data across agency systems;
       calculations, as we did not have its methodology. In                  and (4) provide producers the option to report
       conducting its annual FISMA review of USDA, OIG                       directly to a consolidated USDA reporting site.
       relies on various OIG audits conducted throughout                σσ   Intra-Departmental Coordinating Committee on
       the year.                                                             International Affairs. OIG auditors continue to
 σσ    Whistleblower Protection Enhancement Act of                           participate in this committee’s meetings. Headed by
       2010. This legislation would expand protection                        FAS, part of the purpose of the committee (which
       for individuals involved in credible whistleblower-                   includes most USDA agencies) is to coordinate
       type activities. It would establish a Whistleblower                   international activities. Some of the committee’s issues
       Protection Ombudsman in Federal OIGs to educate                       included USDA’s role in implementing the President’s
       agency employees about prohibitions on retaliation                    national export initiative and the Department’s global
       for protected disclosures and about related rights                    market strategy; reconstruction in Haiti, Pakistan,
       and remedies. Although OIG was not opposed to                         and Afghanistan; and international food security
       the establishment of a Whistleblower Protection                       and assistance. Our comments on a draft of the
       Ombudsman, we recommended that the position not                       Department’s global market strategy stressed the need
       be placed in OIG in order to best preserve Federal IG                 for performance measures and milestones.
       independence and avoid giving OIGs a programmatic
       role that is more appropriate for agency management.




22    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                             Goal 3




σσ   Afghanistan Country Team. As part of our committee                    Information Technology, Professional Development,
     involvement, OIG also attends the Afghanistan                         Contracting, and the Annual Conference. OIG’s
     country team meetings, during which we learned that                   Assistant Inspector General for Audit serves as the
     the Department was receiving funds from the United                    Chair of the Audit Committee. Two areas the Audit
     States Agency for International Development under                     Committee is currently focusing on are (1) reviewing
     the Foreign Assistance Act to help reconstruction                     the Government Auditing Standards 2010 Exposure
     and development. Section 632(a) of the Act gives                      Draft and submitting comments to GAO on the
     audit and fiduciary responsibilities to OIG, and                      proposed standard changes, and (2) evaluating results
     so we continue to work with the Department                            of the peer reviews done on the Federal inspectors
     and United States Agency for International                            general for audit and determining if recommendations
     Development to ensure accountability and oversight                    need to be made to improve the process.
     for grants and agreements that use these funds.                  σσ   Financial Fraud Enforcement Task Force (formerly
σσ   Financial Statement Audit Network (FSAN) Workgroup.                   National Procurement Fraud Task Force). OIG
     OIG auditors are members of the FSAN workgroup,                       is a member of this task force, formed by the
     whose main purpose is to share ideas, knowledge,                      U.S. Department of Justice in October 2006 as a
     and experience concerning Federal financial                           partnership among Federal agencies charged with
     statement audits. In conjunction with FSAN,                           investigating and prosecuting Government contracting
     OIG hosted the CIGIE/GAO Annual Financial                             and grant illegalities. The focus of the task force has
     Statement Audit Conference in the Department’s                        been expanded to include a wider variety of financial
     Jefferson Auditorium on March 30, 2011.                               crimes, from securities fraud to identity theft crimes.
σσ   Interagency Fraud and Risk Data Mining Group.                         The task force is working to better allocate resources,
     The Data Analysis and Special Projects Division                       improve coordination in financial fraud cases, and
     in OIG is an active member of this data mining                        accelerate their investigation and prosecution. At
     group. The purpose of the group is to share ideas,                    the regional level, OIG investigations field offices
     knowledge, and participate in shared training related                 in the Northeast, Great Plains, Midwest, Southeast,
     to data mining techniques. The group consists of                      Southwest, and Western Regions participate in
     dataminers from numerous Federal agencies.                            task forces initiated by the local U.S. Attorney’s
                                                                           offices. The Counsel to the IG participates as a
σσ   Interagency Suspension and Debarment Committee.
                                                                           member of the task force’s legislation committee.
     An OIG auditor is a member of the Interagency
     Suspension and Debarment Committee, which                        σσ   CIGIE IT Groups. The National Computer Forensic
     is a forum for the advancement of suspension                          Division works with a CIGIE subcommittee and
     and debarment policy and activities within the                        working group concerned with IT investigations,
     Federal Government. Our OIG official serves                           computer forensics, and nationwide issues
     as a Co-Chair on the Subcommittee on Parallel                         such as Internet connection integrity.
     Proceedings, whose goal is the coordination of                   σσ   FBI’s Heart of America Regional Computer Forensics
     suspension and debarment proceedings with                             Laboratory. An analyst from OIG’s computer forensics
     contemporaneous civil and criminal actions.                           division works full-time with the laboratory and has
σσ   Federal Audit Executive Council. OIG participates                     helped us obtain direct access to regional laboratories,
     in the Federal Audit Executive Council, whose                         training, samples of applicable policies and procedures,
     main purpose is to discuss and coordinate issues                      and, when needed, FBI assistance for OIG computer
     affecting the Federal audit community with                            forensic work.
     special emphasis on audit policy and operations of
     common interest to members. The council has six
     standing committees: Audit, Financial Statements,




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half           23
 ONGOING AND PLANNED REVIEWS FOR GOAL 3                         σσ    oversight of Federally authorized research
                                                                      and promotion board activities (AMS),
 Topics that will be covered in ongoing or planned reviews
                                                                σσ    FS firefighting cost share agreements
 under Goal 3 include:
                                                                      with non-Federal entities (FS),
 σσ    Section 632(a) funds provided by the U.S. Agency         σσ    followup on FS working capital fund audits (FS),
       for International Development to USDA (FAS),
                                                                σσ    database analysis (Rural Development),
 σσ    international trade policy and procedures
                                                                σσ    USDA’s management and security
       (FAS, FSIS, ARS, APHIS, FS),
                                                                      over handheld devices (OCIO),
 σσ    private voluntary organization grant
                                                                σσ    International Technology Service’s
       fund accountability (FAS),
                                                                      selected controls review (ITS),
 σσ    Small Business Innovation Research Program (NIFA),
                                                                σσ    USDA’s security over domain name
 σσ    economic adjustment assistance to                              system servers (OCIO),
       users of upland cotton (FSA),
                                                                σσ    OCIO’s FY 2010 funding audit (OCIO), and
 σσ    review of FSA’s error rate determination for payments
                                                                σσ    FY 2011 FISMA (OCIO).
       made to estates and deceased individuals (FSA),
 σσ    Departmental management and oversight of the             We will cover the findings and recommendations from
       April 2010 oil spill—Deepwater Horizon (NRCS),           these efforts in future semiannual reports as we complete
                                                                the relevant audits and investigations.
 σσ    NRCS’ control over the Farm and Ranchland
       Protection Program in Michigan (NRCS),
 σσ    NRCS’ utilization of geospatial
       information system data (NRCS),
 σσ    Department and stand-alone agencies’ financial
       statements for FY 2011 (OCFO),
 σσ    FY 2011 National Finance Center
       general controls (OCFO),
 σσ    retirement, health, and life insurance withholdings
       and contribution and supplemental headcount
       report submitted to the Office of Personnel
       Management, FY 2011 (OCFO),
 σσ    Executive Order 13520 High Dollar Report (OCFO),
 σσ    oversight of Beef Research and Promotion Board
       (AMS),




24    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
ONGOING AND PLANNED REVIEWS FOR GOAL 3                           σσ    WIC IT systems management (FNS),
UNDER RECOVERY ACT FUNDS                                         σσ    National School Lunch Program
                                                                       equipment grants (FNS), and
Topics that will be covered in ongoing or planned reviews
                                                                 σσ    Recovery Act general procurement
under Goal 3 under the Recovery Act include:
                                                                       oversight audits (ARS).
σσ    Emergency Food Assistance Program—phase 2 (FNS),
                                                                 The findings and recommendations from these efforts will
σσ    FS wood-to-energy projects—biomass (FS),                   be covered in future semiannual reports as the relevant
σσ    FS acquisition of IT software and hardware (FS),           audits and investigations are completed.
σσ    individual rural business enterprise
      grants—phase 2 (RBS),
σσ    rural business enterprise grants—phase 3 (RBS),
σσ    controls over water and waste loans and grants—phase
      2 (RUS),




                                                             USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half    25
                                                                     Goal 4




Stewardship Over Natural Resources
OIG Strategic Goal 4:                                                     employee was charged with theft of public money, which she
                                                                          obtained by altering and forging financial documents and
Increase the efficiency and effectiveness with which                      accounts. The employee pled guilty and was sentenced to
USDA manages and exercises stewardship over                               serve 6 months of imprisonment, 36 months of probation, and
natural resources                                                         ordered to pay $3,797 in restitution.

OIG’s audits and investigations focus on USDA’s management
                                                                          RECOVERY ACT REVIEWS
and stewardship of natural resources, including soil, water, and
recreational settings. Our work in this area is vital because             FS Needs To Take Steps To Ensure the Accuracy of
USDA is entrusted with hundreds of billions of dollars in                 Information Reported to FedBizOpps
fixed public assets, such as 193 million acres of national forests
                                                                          Of the $650 million the Recovery Act provided for FS’ Capital
and wetlands. USDA also provides scientific and technical
                                                                          Improvement and Maintenance Program, $271 million was
knowledge for enhancing and protecting the economic
                                                                          approved for road maintenance and decommissioning, bridge
productivity and environmental quality of the estimated
                                                                          maintenance and decommissioning, and watershed restoration
1.5 billion acres of forests and associated rangelands in the
                                                                          and ecosystem enhancement. OIG reviewed a number of
United States.
                                                                          contracts for this work and found that FS was not always
In the first half of FY 2011, we devoted 7 percent of our                 posting the relevant information to FedBizOpps, as required by
total direct resources to Goal 4, with 100 percent of these               Federal acquisition regulations. The responsible FS contracting
resources assigned to critical/high-impact work. One hundred              officers were not aware of the posting requirement or believed
percent of our audit recommendations under Goal 4 resulted                the postings were not required. OIG recommended that FS
in management decision within 1 year: no investigative cases              take steps to remind its contracting officers of their reporting
resulted in criminal, civil, or administrative action. OIG                requirements to FedBizOpps, and the agency generally agreed
issued six Recovery Act Fast Reports under Goal 4 during this             with our recommendation. Recovery Act Fast Report (Audit
reporting period. OIG’s investigations under Goal 4 yielded               Report 08703-3-SF (2), Forest Service: The Recovery Act—
three indictments, four convictions, and $166,200 in monetary             Forest Service Roads, Bridges, and Related Watershed Projects)
results during this reporting period.
                                                                          FS Needs To Ensure That Its Purchase Card Users
                                                                          Comply With All Federal Rules and Regulations
 Management Challenges Addressed UNDER GOAL 4                             With part of the funding provided for Capital Improvement
                                                                          and Maintenance Program projects under the Recovery Act,
 σσ     Better FS Management and Community Action                         FS approved $100,000 for the Hoosier National Forest in
        Needed To Improve the Health of the National
                                                                          Bedford, Indiana, to hire temporary employees to conduct
        Forests and To Reduce the Cost of Fighting Fires
                                                                          deferred maintenance on recreation sites, including clearing
 σσ     Implementation of Strong, Integrated, Internal Control            brush, removing hazardous trees, and resurfacing some sites
        Systems Still Needed (also under Goals 1, 2, and 3)               with gravel. OIG found, however, that two employees of the
 σσ     Implementation of the Recovery Act                                Hoosier National Forest were unaware of the Recovery Act
        (also under Goals 2 and 3)                                        rules they must follow when using their purchase cards, and
                                                                          charged expenses in ways that did not comply with all Federal
                                                                          rules and regulations. We recommended that FS remind all
EXAMPLES OF INVESTIGATIVE WORK FOR GOAL 4                                 cardholders of their responsibilities when using these cards,
                                                                          and that they must follow all Recovery Act transparency
Texas Woman Steals Public Money From a County Soil
                                                                          reporting and record-keeping requirements. FS agreed with
and Water Conservation District Office
                                                                          our recommendations. Recovery Act Fast Report (Audit Report
In August 2010, in the Federal court for the Northern District            08703-2-SF (3), Recovery Act—Hazardous Fuels Reduction
of Texas, a former Texas Soil and Water Conservation District             and Ecosystem Restoration on Non-Federal Lands)




26     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                                  Goal 4




FS Needs To Ensure That Only Allowable Costs Are                       with our recommendation and is taking steps to correct the
Charged to Its Capital Improvement Projects in Gila                    problem. Recovery Act Fast Report (Audit Report 08703-5-
National Forest                                                        SF (4), Recovery Act—FS Hazardous Fuels Reduction and
                                                                       Ecosystem Restoration on Non-Federal Lands)
With respect to FS’ use of Recovery Act funding for Capital
Improvement and Maintenance Program projects, OIG                      FS Needs To Ensure That Recovery Act Funds
reviewed two participating agreements for an estimated                 Are Awarded to Projects in Economically
$643,000 in Gila National Forest—approximately $370,000                Distressed Areas
was allocated for a 185-mile trail maintenance project and             OIG also reviewed 10 wildland fire management grants
$273,000 for a 145-mile trail maintenance project. We                  funded with Recovery Act monies to determine if the States
found that the non-profit organization responsible for these           that received the funds selected projects meeting Recovery Act
projects charged FS about $24,700 in questionable costs for            eligibility requirements. We found that only 3 of these 10
improvements to its own office. We also found that the non-            grants met the requirement that funds would be awarded in
profit organization charged FS $7,699 in other questionable            economically distressed areas with the greatest environmental
expenses. We recommended that the Gila National Forest                 risk. Since FS did not require States to use a scoring system
recover any funds that were for unallowable expenses and               like the one it used to award the Recovery Act funds to the
work with the non-profit organization to ensure that all               States, the States ultimately selected projects based primarily
costs charged to the project are allowable and accurate. FS            on natural resource needs, with little or no consideration for
agreed with our recommendations and was able to recover                the economic conditions of their individual counties. OIG
$17,873 in unallowable costs. Recovery Act Fast Report (Audit          recommended that FS identify those on-the-ground projects
Report 08703-4-SF (2), Recovery Act—Gila National Forest,              that have not yet started and issue further guidance to the
New Mexico—Questionable Costs—Forest Service Trail                     States requiring that they ensure that Recovery Act funds go to
Maintenance and Decommissioning)                                       projects that best meet Recovery Act objectives. FS generally
FS Needs To Ensure That Grantees Properly Support                      agreed with our recommendations and plans to issue guidance
Costs They Charge to Recovery Act Projects                             to the States by March 31, 2011. Recovery Act Fast Report
                                                                       (Audit Report 08703-5-SF (3), FS Hazardous Fuels Reduction
The Recovery Act provided $200 million for FS to implement
                                                                       and Ecosystem Restoration on Non-Federal Lands)
wildland fire management projects on State and private
lands. OIG reviewed four Recovery Act grants FS awarded                FS Needs To Verify That a Grant Recipient Used
to recipients in FS’ Pacific Southwest Region and found                Recovery Act Funds for Legitimate Purposes
that one claimed $567,000 in indirect costs that were not              From the Recovery Act funds available for wood-to-energy
supported. Additionally, this recipient claimed unsupported            grants, which promote increased use of biomass from Federal,
indirect costs totaling about $2 million for three of its non-         State, and private lands, FS obligated $49 million for 23
Recovery Act-related FS grants. These problems occurred                grants, as of June 2009. OIG reviewed a grant that funded the
because FS staff responsible for awarding the Recovery Act             site preparation and construction of a boiler heating facility,
and non-Recovery Act-funded grants were not fully aware                and found that the grant recipient overstated its request for
of Office of Management and Budget’s (OMB) indirect cost               reimbursement for site preparation and construction of a boiler
approval requirements. Without a properly approved indirect            heating facility by $250,000. The grant recipient requested
cost rate, FS has no reasonable assurance that grant recipients        these additional funds for contingencies, but this use of
are accurately claiming their indirect costs in compliance             Recovery Act funds was not permitted. OIG recommended
with OMB requirements. OIG recommended that FS review                  that FS verify that the $250,000 was used for grant purposes
both its existing Recovery Act and non-Recovery Act-funded             and recover any excess reimbursements. FS agreed with our
non-Federal wildland fire management grants to ensure that             recommendations. Recovery Act Fast Report (Audit Report
grant recipients claiming indirect costs meet OMB approval             08703-01-SF (4), Grant Recipient Submits Inaccurate Payment
requirements and have supporting documentation. FS agreed              Request)




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half       27
                                                                Goal 4




 GOVERNMENTWIDE ACTIVITIES—GOAL 4                                        ONGOING AND PLANNED REVIEWS FOR GOAL 4
 Participation on Committees, Working Groups,                            Topics that will be covered in ongoing or planned reviews
 and Task Forces                                                         under Goal 4 include:

 σσ    Strategic Planning and Accountability, Compliance                 σσ    Conservation Stewardship Program (NRCS),
       Division, Corporate Compliance Strategic Framework.               σσ    internal controls and management of drug enforcement
       We continue to work with and provide feedback                           issues on National Forest System lands (FS),
       to NRCS on its initiative to develop an effective
                                                                         σσ    evaluating FS’ processes to obtain and grant
       and comprehensive compliance strategy. OIG
                                                                               rights of way and easements (FS),
       reviewed and offered suggestions to improve
       the latest draft framework, stressing the need                    σσ    management of oil and gas resources on
       for outcome-based performance measures.                                 National Forest System lands (FS),

 σσ    Environmental Crimes Working Groups. OIG agents                   σσ    administration of the Special Use Permit Program (FS),
       have joined working groups in the District of New                 σσ    use of prescribed fire (FS), and
       Hampshire and the Eastern District of North                       σσ    Forest Legacy Program (FS).
       Carolina, which were convened by U.S. Attorney’s
       offices to enhance the cooperation and capabilities               We will cover the findings and recommendations from
       of member agencies in enforcing their respective                  these efforts in future semiannual reports as we complete
       environmental laws, as well as to exchange information            the relevant audits and investigations.
       and provide prosecutorial support and training
       opportunities. An OIG agent is also participating                 ONGOING AND PLANNED REVIEWS FOR GOAL 4
       in an environmental and natural resources law                     UNDER RECOVERY ACT FUNDS
       enforcement working group in Arizona, which has
       similar goals of improving training and coordination              Topics that will be covered in ongoing or planned reviews
       for investigators working on natural resources cases.             under Goal 4 under the Recovery Act include:
 σσ    Rural Crimes Task Force. OIG is one of several law                σσ    Recovery Act watershed protection and flood
       enforcement agencies participating on a task force                      prevention operations—phase 3 (NRCS),
       to combat crimes in rural areas in southeastern                   σσ    trail maintenance and decommissioning (FS),
       California. Other participating agencies include
                                                                         σσ    facility improvement, maintenance,
       the San Bernardino County Sheriff’s Department,
                                                                               and renovation (FS),
       California Department of Food and Agriculture,
       California Department of Fish and Game, APHIS,                    σσ    road maintenance and decommissioning (FS),
       FSIS, and environmental crimes prosecutors                        σσ    abandoned mine remediation (FS), and
       from San Bernardino and Riverside Counties.
                                                                         σσ    hazardous fuels reduction and ecosystem
                                                                               restoration on non-Federal lands (FS).
                                                                         The findings and recommendations from these efforts
                                                                         will be covered in future semiannual reports as the
                                                                         relevant audits and investigations are completed.




28    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                            Impact of the OIG




Gauging the Impact of OIG
MEASURING PROGRESS AGAINST THE OIG                                     For audits we show:
STRATEGIC PLAN                                                         σσ       reports issued,
The first way we gauge our impact is by measuring the extent to        σσ       management decisions made (number of
which our work focused on the key issues under our FY 2010                      reports and recommendations),
goals:                                                                 σσ       total dollar impact of management-decided reports
                                                                                (questioned costs and funds to be put to better use),
1.	   Strengthen USDA’s ability to implement safety and
      security measures to protect the public health as                σσ       program improvement recommendations, and
      well as agricultural and Departmental resources.                 σσ       audits without management decision.
2.	   Reduce program vulnerabilities and strengthen program
      integrity in the delivery of benefits to individuals.            For investigations we show:
3.	   Support USDA in implementing its                                 σσ       indictments,
      management improvement initiatives.
                                                                       σσ       convictions,
4.	   Increase the efficiency and effectiveness with which USDA
                                                                       σσ       arrests,
      manages and exercises stewardship over natural resources.
                                                                       σσ       total dollar impact (recoveries, restitutions,
IMPACT OF OIG AUDIT AND INVESTIGATIVE WORK ON                                   fines, asset forfeiture),
DEPARTMENT PROGRAMS                                                    σσ       administrative sanctions, and
                                                                       σσ       OIG Hotline complaints.
A second way we gauge our impact is by tracking the
outcomes of our audits and investigations. Many of these
measures are codified in the IG Act of 1978, as amended. The
following pages present a statistical overview of the OIG’s
accomplishments this period.




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half            29
                                                                   Impact of the OIG




                                     PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                                           FY 2011
                                                                                       FY 2010   FY 2011
Performance Measures                                                                                       1st Half
                                                                                        Actual    Target
                                                                                                            Actual

OIG direct resources dedicated to critical-risk and high-impact activities.            91.8%      90%      96.4%


Audit recommendations where management decisions are achieved within
                                                                                       90.2%      90%       88%
1 year.

Audits initiated where the findings and recommendations are presented to the
                                                                                       100%       85%      100%
auditee within established or agreed-to timeframes.
Closed investigations that resulted in a referral for action to the
U.S. Department of Justice, State/local law enforcement officials, or                  84.8%      70%      85.3%
relevant administrative authority.
Closed investigations that resulted in an indictment, conviction, civil suit or
                                                                                       72.8%      65%      72.9%
settlement, judgment, administrative action, or monetary result.


                          RECOVERY ACT PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                                           FY 2011
                                                                                       FY 2010   FY 2011
Performance Measures                                                                                       1st Half
                                                                                        Actual    Target
                                                                                                            Actual
Notify USDA agency managers of significant audit findings related to Recovery
Act programs along with recommendations for corrective action within 30 days           83.3%      85%      87.5%
after identification.

Respond to Recovery Board-sponsored requests and projects within established
                                                                                       100%       85%      100%
schedules or agreed-upon timeframes.

An investigative determination to accept or decline an allegation of
                                                                                       100%      100%      100%
whistleblower retaliation is made within 180 days of receipt.

Investigations staff will participate in 10 outreach/training meetings each
                                                                                       135%       80%       80%
quarter on Recovery Act work.

Whistleblower retaliation allegations are investigated and reported within
                                                                                       100%       75%       N/A
180 days of receipt.a

Timely and accurate monthly Recovery Act funds reports submitted to the
                                                                                       100%       88%      100%
Recovery Board.

a
    No whistle blower retaliation allegations were investigated.




30        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                                     Impact of the OIG




                                     SUMMARY OF AUDIT ACTIVITIES — OCTOBER 2010-MARCH 2011
Reports Issued                                                                                                                               21
      Audits Performed by OIG                                                                                                                18
      Evaluations Performed by OIG                                                                                                               0
      Audits Performed Under the Single Audit Act                                                                                                0
      Audits Performed by Others                                                                                                                 4
Management Decisions Made
      Number of Reports                                                                                                                      21
      Number of Recommendations                                                                                                             133
Total Dollar Impact (Millions) of Management-Decided Reports                                                                              $11.1
      Questioned/Unsupported Costs                                                                                                         $5.0a,b
            Recommended for Recovery                                                                                                       $4.9
            Not Recommended for Recovery                                                                                                   $0.1
      Funds To Be Put to Better Use                                                                                                        $6.1
a
    These were the amounts the auditees agreed to at the time of management decision.
b
    The recoveries realized could change as auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded as debts
    due the Department.



                             SUMMARY OF INVESTIGATIVE ACTIVITIES — OCTOBER 2010-MARCH 2011
Reports Issued                                                                                                                              182
       Cases Opened                                                                                                                         274
       Cases Referred for Prosecution                                                                                                        42
Impact of Investigations
       Indictments                                                                                                                          199
       Convictions   a
                                                                                                                                            249
       Searches                                                                                                                             112
       Arrests                                                                                                                              516
Total Dollar Impact (Millions)                                                                                                            $47.8
      Recoveries/Collections     b
                                                                                                                                         $16.7
      Restitutions  c
                                                                                                                                         $26.6
      Fines d
                                                                                                                                           $1.5
      Asset Forfeiturese                                                                                                                   $1.0
      Claims Established     f
                                                                                                                                           $0.5
      Cost Avoidance     g
                                                                                                                                           $1.4
      Administrative Penaltiesh                                                                                                            $0.1
Administrative Sanctions                                                                                                                    134
      Employees                                                                                                                              41
      Businesses/Persons                                                                                                                     93
a
  Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore, the
  249 convictions do not necessarily relate to the 199 indictments.
b
  Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
  Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
  Fines are court-ordered penalties.
e
  Asset forfeitures are judicial or administrative results.
f
  Claims established are agency demands for repayment of USDA benefits.
g
  Consists of loans or benefits not granted as the result of an OIG investigation.
h
  Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.



                                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half                31
                                                            Impact of the OIG




                                INVENTORY OF AUDIT REPORTS WITH QUESTIONED COSTS AND LOANS
                                       FROM OCTOBER 1, 2010 THROUGH MARCH 31, 2011
                                                                                      DOLLAR VALUES
                                                                                     QUESTIONED COSTS    UNSUPPORTEDa
                                                                            NUMBER
                                                                                        AND LOANS       COSTS AND LOANS
    A.    FOR WHICH NO MANAGEMENT DECISION
                                                                                12     $259,675,051       $2,101,093
          HAD BEEN MADE BY OCTOBER 1, 2010
    B.    WHICH WERE ISSUED DURING THIS
                                                                                 3       $1,406,149               $0
          REPORTING PERIOD
          TOTALS                                                                15     $261,081,200        $2,101,093
    C.    FOR WHICH MANAGEMENT DECISION WAS
                                                                                 5
          MADE DURING THE REPORTING PERIOD
          (1) DOLLAR VALUE OF DISALLOWED COSTS
              RECOMMENDED FOR RECOVERY                                                   $4,878,712         $774,325
              NOT RECOMMENDED FOR RECOVERY                                                 $63,865           $41,287
          (2) DOLLAR VALUE OF COSTS NOT
                                                                                         $8,337,527         $246,346
              DISALLOWED
    D.    FOR WHICH NO MANAGEMENT DECISION HAS
          BEEN MADE BY THE END OF THIS REPORTING                                10     $247,801,096       $1,039,135
          PERIOD
          REPORTS FOR WHICH NO MANAGEMENT
          DECISION WAS MADE WITHIN 6 MONTHS OF                                   8     $247,334,247       $1,039,135
          ISSUANCE
a
    Unsupported values are included in questioned values.



               INVENTORY OF AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                 FROM OCTOBER 1, 2010 THROUGH MARCH 31, 2011
                                                                                           NUMBER         DOLLAR VALUE
A.       FOR WHICH NO MANAGEMENT DECISION HAD BEEN MADE BY
                                                                                              4            $9,955,862
         OCTOBER 1, 2010
B.       WHICH WERE ISSUED DURING THE REPORTING PERIOD                                        3            $1,054,218
         TOTALS                                                                               7            $11,010,080
C.       FOR WHICH A MANAGEMENT DECISION WAS MADE DURING THE
                                                                                              5
         REPORTING PERIOD
         (1) DOLLAR VALUE OF DISALLOWED COSTS                                                              $6,140,741
         (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                                            $926,745
D.       FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE BY THE
                                                                                              2            $3,942,594
         END OF THE REPORTING PERIOD
         REPORTS FOR WHICH NO MANAGEMENT DECISION WAS MADE
                                                                                              1            $3,370,602
         WITHIN 6 MONTHS OF ISSUANCE




32        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                               Impact of the OIG




PROGRAM IMPROVEMENT RECOMMENDATIONS                                       σσ       FSA agreed to improve its Emergency Conservation
                                                                                   Program so that its field employees would have a more
A significant number of our audit recommendations carry no                         accurate understanding of the disaster damage producers
monetary value per se, but their impact can be immeasurable in                     suffered before they are compensated for the costs of
terms of safety, security, and public health. They can also                        repairing their land.
contribute considerably toward economy, efficiency, and
effectiveness in USDA’s programs and operations. During this              INVESTIGATION AND AUDIT PEER REVIEWS
reporting period, we issued 98 program improvement
                                                                          σσ       During the current semiannual reporting period, there were
recommendations, and management agreed to implement a
                                                                                   no audit peer reviews of USDA OIG. USDA OIG received
total of 114 that were issued this period or earlier. Examples of                  a grade of pass on the peer review report issued by the U.S.
those issued this period (see the main text of this report for a                   Housing and Urban Development OIG on September 30,
summary of the audits that prompted these recommendations)                         2009—this report contained no findings or
include the following:                                                             recommendations.
σσ    FSIS agreed to implement a more risk-based approach for             σσ       In August 2010, the U.S. Department of Homeland
      sampling ground beef for E. coli so that its limited testing                 Security OIG conducted a CIGIE Quality Assessment
      resources can be used as effectively as possible.                            Review of USDA OIG Investigations in our Washington,
                                                                                   D.C. Headquarters office and our Chicago regional office
σσ    FSIS agreed to work more closely with FDA to establish the
                                                                                   for the period October 1, 2008 through September 31,
      FERN program more formally and to tier the laboratories
                                                                                   2009. The report was issued November 10, 2010—it
      they use so that they can be brought online effectively
                                                                                   contained no recommendations, and determined that
      during an emergency.
                                                                                   Investigations is in compliance with the quality standards
                                                                                   established by CIGIE and the Attorney General.




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half              33
                                                                 Impact of the OIG




           SUMMARY OF AUDIT REPORTS RELEASED FROM OCTOBER 1, 2010 THROUGH MARCH 31, 2011
     From October 1, 2010 through March 31, 2011, OIG issued 21 audit reports, including 4 performed by others.
                               The following is a summary of those audits by agency.
                                                                                  QUESTIONED       UNSUPPORTEDa     FUNDS BE PUT TO
                       AGENCY                              AUDITS RELEASED
                                                                                COSTS AND LOANS   COSTS AND LOANS     BETTER USE
COMMODITY CREDIT CORPORATION                                      1
FARM SERVICE AGENCY                                               3
FOOD AND NUTRITION SERVICE                                        1
FOOD SAFETY AND INSPECTION
                                                                  2
SERVICE
FOREST SERVICE                                                    2                   $724,000
MULTIAGENCY                                                       6                   $682,149                          $571,992
NATURAL RESOURCES CONSERVATION
                                                                  2                                                      $29,777
SERVICE
RISK MANAGEMENT AGENCY                                            1
RURAL BUSINESS-COOPERATIVE
                                                                  1
SERVICE
RURAL DEVELOPMENT                                                 1
RURAL HOUSING SERVICE                                             1                                                     $452,449
TOTALS                                                           21                  $1,406,149                        $1,054,218
TOTAL COMPLETED:
     SINGLE AGENCY AUDIT                                         15
     MULTIAGENCY AUDIT                                            6
     SINGLE AGENCY EVALUATION                                     0
     MULTIAGENCY EVALUATION                                       0
TOTAL RELEASED NATIONWIDE                                        21
TOTAL COMPLETED UNDER
                                                                  4
CONTRACTb
TOTAL SINGLE AUDIT ISSUEDc                                        0
a
  Unsupported values are included in questioned values.
b
  Indicates audits performed by others.
c
  Indicates audits completed under the Single Audit Act.




34     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                          Impact of the OIG




                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                  FROM OCTOBER 1, 2010 THROUGH MARCH 31, 2011
                                                                                  QUESTIONED      UNSUPPORTED FUNDS TO BE
AUDIT NUMBER       RELEASE DATE                      TITLE                         COSTS AND       COSTS AND  PUT TO BETTER
                                                                                     LOANS           LOANS         USE
Commodity Credit Corporation
06401-25-FM       11/12/10           FY 2010 CCC Financial Statements
Total: Commodity Credit Corporation                                           1
Farm Service Agency
                                     FSA Average Crop Revenue Election
03099-199-KC 12/10/10
                                     Program, Sheridan County, Montana
                                     Recovery Act Spending for FSA
03703-1-IT        03/31/11
                                     Information Technology Issues
                                     Recovery Act – Direct Farm
03703-2-Te        01/13/11
                                     Operating Loans (Phase 2)
Total: Farm Service Agency                                                    3
Food and Nutrition Service
27401-35-Hy       11/05/10           FY 2010 FNS Financial Statements
Total: Food and Nutrition Service                                             1
Food Safety and Inspection Service
24601-6-At        03/22/11           Food Emergency Response Network
                                     FSIS Sampling Protocol for Testing
24601-9-KC        02/24/11
                                     Beef Trim for E. Coli O157:H7
Total: Food Safety and Inspection Service                                     2
Forest Service
                                     FS Contract Review for Fire Effect
08017-5-Hy        03/31/11                                                           $724,000
                                     Modeling Programs
08401-11-FM       11/08/10           FY 2010 FS Financial Statements
Total: Forest Service                                                         2      $724,000
Multiagency
                                     Calendar Year 2010 Executive Order
                                     13520, Reducing Improper Payments,
50024-2-FM        03/23/11
                                     Accountable Official Annual Report
                                     Review
                                     USDA Payments for 2005 Citrus
50099-46-At       03/23/11                                                           $633,717
                                     Canker Tree Losses
50401-70-FM       11/15/10           FY 2010 USDA Financial Statements
                                     FY 2010 Audit of USDA’s Closing
50401-71-FM       11/15/10
                                     Package
                                     FY 2010 Federal Information Security
50501-2-IT        11/15/10
                                     Management Act Report
                                     Emergency Disaster Assistance
50601-16-KC       03/31/11           for 2008 Floods: Emergency                       $48,432                         $571,992
                                     Conservation Program
Total: Multiagency                                                            6      $682,149                         $571,992


                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half   35
                                                             Impact of the OIG




                            AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                 FROM OCTOBER 1, 2010 THROUGH MARCH 31, 2011
                                                                                      QUESTIONED   UNSUPPORTED FUNDS TO BE
 AUDIT NUMBER       RELEASE DATE                     TITLE                             COSTS AND    COSTS AND  PUT TO BETTER
                                                                                         LOANS        LOANS         USE
Natural Resources Conservation Service
10401-4-FM       11/08/10            FY 2010 NRCS Financial Statements
                                     NRCS Emergency Disaster Assistance:
10601-6-KC       03/30/11            Emergency Watershed Protection                                                 $29,777
                                     Program
Total: Natural Resources Conservation Service                                    2                                  $29,777
Risk Management Agency
                                     FY 2010 Federal Crop Insurance
05401-19-FM      11/08/10
                                     Corporation Financial Statements
Total: Risk Management Agency                                                    1
Rural Business-Cooperative Service
                                     Request Audit of a Business and
34099-8-Te       12/27/10
                                     Industry Guaranteed Lender
Total: Rural Business-Cooperative Service                                        1
Rural Development
                                     FY 2010 Rural Development
85401-18-FM      11/12/10
                                     Financial Statements
Total: Rural Development                                                         1
Rural Housing Service
                                     Controls Over RHS Disaster
04601-19-Ch      02/07/11                                                                                          $452,449
                                     Assistance Payments
Total: Rural Housing Service                                                     1                                 $452,449
Grand Total                                                                      21   $1,406,149                 $1,054,218




36    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                        Impact of the OIG




                                        AUDITS WITHOUT MANAGEMENT DECISION
The IG Act has a number of reporting requirements, including tracking audits without management decision. The following
audits did not have management decisions made within the 6-month limit set by Congress. Narratives for new entries follow
this table.

                                          NEW SINCE LAST REPORTING PERIOD
                                                                                          Total Value at      Amount With No
                                                                                           Issuance (in       Mgmt Decision
   Agency        Date Issued                          Title of Report                        dollars)           (in dollars)
                                 1. Effectiveness and Enforcement of Debarment
Multi-agency      08/16/10          and Suspension Regulations in USDA (50601-                         0                       0
                                    14-At)
                                 2. Pasture, Rangeland, and Forage Loss Pilot
Multi-agency      08/27/10                                                                   $1,169,645          $1,169,645
                                    Program (50601-18-Te)
                                 3. Rural Business Cooperative Services –
RBS               06/25/10                                                                   $7,909,538          $7,909,538
                                    Intermediary Relending Program (34601-6-At)



                           AUDIT REPORTS PREVIOUSLY REPORTED BUT NOT YET RESOLVED
These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous SARCs. Agencies have
been informed of actions that must be taken to reach management decision but, for various reasons, the actions have not been
completed. The appropriate Under and Assistant Secretaries have been notified of those audits without management decisions.

                                    PREVIOUSLY REPORTED BUT NOT YET RESOLVED
                                 4. Hurricane Relief Initiatives: Livestock and Feed
FSA               02/02/09                                                                   $1,866,412          $1,288,247
                                    Indemnity Programs (03601-23-KC)
                                 5. Implementation of the Agricultural Risk
Multi-agency      09/30/03                                                                             0                    0
                                    Protection Act (50099-12-KC)
NRCS              06/25/09       6. Conservation Security Program (10601-4-KC)               $4,895,958          $4,895,958
                                 7. Farm and Ranch Lands Protection Program
                  07/06/09          – Nationwide Selected Non-Governmental                      716,563             716,563
                                    Organization (10099-6-SF)
                                 8. Monitoring of RMA’s Implementation of Manual
RMA               03/15/02          14 Reviews/Quality Control Review System                           0                    0
                                    (05099-14-KC)
                                 9. Crop Loss and Quality Adjustments for Aflatoxin
                  09/30/08                                                                   15,951,016          15,951,016
                                    Infected Corn (05601-15-Te)
                                10. RMA’s 2005 Emergency Hurricane Relief Efforts
                  03/04/09                                                                 217,256,417          217,256,417
                                    in Florida (05099-28-At)
                  09/16/09      11. RMA Compliance Activities (05601-11-At)                            0                    0




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half       37
                                                             Impact of the OIG




AUDITS WITHOUT MANAGEMENT DECISION - NARRATIVE                          3. Rural Business-Cooperative Services–
FOR NEW ENTRIES                                                         Intermediary Relending Program, 34601-6-At,
                                                                        Issued 6/25/10
1. Effectiveness and Enforcement of Debarment
and Suspension Regulations in USDA, 50601-14-At,                        Based on our review, we concluded that the agency must
Issued 8/16/10                                                          monitor intermediaries more effectively to ensure they make
                                                                        loans to eligible borrowers for authorized purposes. We found
OIG found that the Department had not fully implemented
                                                                        that 33 of 435 loans totaling $7.9 million did not comply
either procurement or nonprocurement suspension and
                                                                        with program requirements, such as loan limit, purpose, or
debarment programs. Years ago, USDA had established
                                                                        eligibility. In many cases, this occurred because intermediaries
exclusions for many of its programs and effectively much of its
                                                                        made the loans with “revolved” funds (money that loan
budget from application of the suspension and debarment rules
                                                                        recipients pay back to intermediaries), which they considered
established by two executive orders for the nonprocurement
                                                                        exempt from Federal requirements due to ambiguous regulatory
program. OIG made 27 recommendations to various
                                                                        language. We also determined that two of seven intermediaries
Departmental agencies and offices to fully implement both
                                                                        did not promptly re-lend their revolved funds, totaling over
procurement and nonprocurement suspension and debarment
                                                                        $1.7 million. Regulations required intermediaries to re-lend
programs based on our findings, including (1) justifying all
                                                                        funds promptly, but did not provide a specific timeframe.
exclusions of transactions from the nonprocurement suspension
and debarment programs; (2) clarifying regulations so that              RBS generally agreed with the report’s recommendations,
agencies would consider suspension or debarment actions for             and we have reached management decision on four of the
anyone who abused a Department program; (3) establishing                report’s eight recommendations. In order to reach management
a centralized division to provide coordination, guidance,               decision on the four remaining recommendations, RBS needs
and training for these programs; and (4) establishing needed            to provide copies of bills for collection and documentation
controls to ensure the Department fully implements the                  showing that an account receivable has been established on the
regulations. We have reached management decision on 16                  agency’s accounting records for the recovery of the ineligible
of the report’s recommendations and continue to work with               loans for the portion of the $7.9 million that the Office of
various agencies and offices to reach final management decision         the General Counsel determines to be recoverable. RBS
on the report.                                                          needs to provide documentation of the Office of the General
                                                                        Counsel’s decisions concerning the definition of Federal funds
2. RMA Pasture, Rangeland, and Forage Pilot                             and corrective actions based on that decision. RBS needs to
Program, 50601-18-Te, Issued 8/27/10                                    describe the changes planned to the field visit form to be used
We found that RMA needs to strengthen its controls over the             for annual borrower visits. Finally, RBS needs to provide
Pasture, Rangeland, and Forage (PRF) Program. We have                   a plan for quantifying the amount that must be re-loaned
reached management decision on eight recommendations                    for intermediaries to qualify for subsequent Intermediary
and are awaiting RMA’s response on the remaining four                   Relending Program loans.
recommendations. Open recommendations include making
a determination on whether the producer we reviewed is
ineligible and, if so, to recover any indemnity payments
made to the producer, cancel any existing and future policies
belonging to the producer, and to place the producer and his
four entities on the list of ineligible persons who are prevented
from receiving crop insurance.




38     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                             Impact of the OIG




INDICTMENTS AND CONVICTIONS
From October 1, 2010, through March 31, 2011, OIG completed 182 investigations. We referred 42 cases to Federal, State, and
local prosecutors for their prosecutive determination.
During the reporting period, our investigations led to 199 indictments and 249 convictions. The period of time to obtain court
action on an indictment varies widely; therefore, the 249 convictions do not necessarily relate to the 199 indictments. Fines,
recoveries/collections, restitutions, claims established, cost avoidance, and administrative penalties resulting from our investigations
totaled about $47.8 million. The following is a breakdown, by agency, of indictments and convictions for the reporting period.



                                  Indictments and Convictions—October 1, 2010 – March 31, 2011
                      Agency                                  Indictments                                   Convictions*
                       AMS                                           2                                             0
                      APHIS                                         12                                          121
                        FNS                                       139                                            87
                         FS                                          2                                             8
                        FSA                                         21                                           12
                        FSIS                                         5                                             3
                      GIPSA                                          0                                             1
                       NRCS                                          4                                             5
                        OIG                                          0                                             1
                        RHS                                          2                                             2
                       RMA                                          12                                             7
                        RUS                                          0                                             2
                       Totals                                      199                                          249
 * This category includes pretrial diversions.




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half         39
                                                             Impact of the OIG




OFFICE OF INSPECTOR GENERAL HOTLINE                                     period, the hotline received 1,492 complaints, which included
                                                                        allegations of participant fraud, employee misconduct, and
The OIG hotline serves as a national intake point for reports           mismanagement, as well as opinions about USDA programs.
from both employees and the general public of suspected                 Figure 1 displays the volume and type of the complaints we
incidents of fraud, waste, mismanagement, and abuse in                  received, and Figure 2 displays their disposition.
USDA programs and operations. During this reporting



                                             Hotline Complaints Summary—FY 2011, 1st Half
 Total No. of Complaints Received                                                                               1,492



     Figure 1. Volume and Type


                                                                                                 Participant Fraud (931)




                    Employee Misconduct (177)


                    Reprisal (2)
                    Bribery (3)

                    Opinion/Information (131)

                    Health/Safety Problem (41)                                                 Waste Management (207)



     Figure 2. Disposition of Complaints Received

                                                                                                          Referred to USDA Agencies
        Referred to Other Law
                                                                                                                 for Response (556)
        Enforcement Agencies (12)

        Referred to OIG Audit or
        Investigations for Review (128)


        Referred to State Agencies (8)
                                                                                                   Referred to FNS for Tracking (495)
        Filed Without Referral–
        Insufficient Information (48)


        Referred to USDA or Other Agencies
        for Information–No Response
        Needed (245)




40      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
                                                                Impact of the OIG




                         FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS
                             FOR THE PERIOD OCTOBER 1, 2010 THROUGH MARCH 31, 2011
Number of FOIA/PA Requests Received                                                                                      77
Number of FOIA/PA Requests Processed                                                                                     78
Number Granted                                                                                                            9
Number Partially Granted                                                                                                28
Number Not Granted                                                                                                      41
Reasons for Denial
No Records Available                                                                                                    12
Referred to Other Agencies                                                                                                2
Requests Denied in Full Exemption 5                                                                                       2
Requests Denied in Full Exemption 7(A)                                                                                    7
Requests Denied in Full Exemption 7(C)                                                                                    0
Request Withdrawn                                                                                                         3
Fee-Related                                                                                                               2
Not a Proper FOIA Request                                                                                                 2
Not an Agency Record                                                                                                      1
Duplicate Request                                                                                                         0
Other                                                                                                                   10
Requests for OIG Reports from Congress and Other Government Agencies
Received                                                                                                                  0
Processed                                                                                                                 0
Appeals Received                                                                                                          8
Appeals Processed                                                                                                         8
Appeals Completely Upheld                                                                                                 3
Appeals Partially Reversed                                                                                                2
Appeals Completely Reversed                                                                                               1
Appeals Requests Withdrawn                                                                                                0
Other                                                                                                                     2
Number of OIG Reports/Documents Released in Response to Requests                                                         20
NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 38 audit reports were posted online on the OIG Web site: http://www.usda.gov/oig




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half   41
                                                               Impact of the OIG




Abbreviations
Abbreviation Full Name                                                     Abbreviation Full Name
AMS               Agricultural Marketing Service                           FSIS         Food Safety and Inspection Service
APHIS             Animal and Plant Health Inspection Service               GIPSA        Grain Inspection, Packers and
ARS               Agricultural Research Service                                         Stockyards Administration

BCAP              Biomass Crop Assistance Program                          IG           Inspector General

CACFP             Child and Adult Care Food Program                        IRS          Internal Revenue Service

CCC               Commodity Credit Corporation                             IT           Information Technology

CHST              Collection, Harvest, Storage, and                        NASS         National Agricultural Statistics Service
                  Transportation                                           NIFA         National Institute of Food and Agriculture
CCWD              Community College Workforce Development                  NRCS         Natural Resources Conservation Service
CIGIE             Council of the Inspectors General on Integrity           NSLP         National School Lunch Program
                  and Efficiency                                           OCIO         Office of the Chief Information Officer
E. coli           Escherichia coli 0157:H7                                 OCFO         Office of the Chief Financial Officer
EBT-POS           electronic benefits transfer-point of sale               OIG          Office of Inspector General
ECP               Emergency Conservation Program                           OMB          U.S. Office of Management and Budget
EWP               Emergency Watershed Protection                           RBS          Rural Business-Cooperative Service
FAS               Foreign Agricultural Service                             Recovery     American Recovery and Reinvestment Act of
FBI               Federal Bureau of Investigation                          Act          2009
FCIC              Federal Crop Insurance Corporation                       Recovery     Recovery Accountability and Transparency
FDA               U.S. Food and Drug Administration                        Board        Board

FEMA              Federal Emergency Management Agency                      RHS          Rural Housing Service

FERN              Food Emergency Response Network                          RMA          Risk Management Agency

FFMIA             Federal Financial Management Improvement                 RUS          Rural Utilities Service
                  Act                                                      SARC         Semiannual Report to Congress
FISMA             Federal Information Security Management                  SNAP         Supplemental Nutrition Assistance Program
                  Act                                                      USDA         U.S. Department of Agriculture
FNS               Food and Nutrition Service                               WIC          Special Supplemental Nutrition Program for
FS                Forest Service                                                        Women, Infants, and Children
FSA               Farm Service Agency




42        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2011 1st Half
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING THIS REPORTING
PERIOD (114 TOTAL)
σσ    FSIS agreed to implement a more risk-based approach for sampling ground beef for E. coli
      so that its limited testing resources can be used as effectively as possible.
σσ    FSIS agreed to work more closely with the U.S. Food and Drug Administration to establish the FERN program more
      formally, and to tier the laboratories they use so that they can be brought online effectively during an emergency.
σσ    FSA agreed to improve its Emergency Conservation Program so that its field employees would have a more accurate
      understanding of the disaster damage producers suffered before they are compensated for the costs of repairing their land.


OIG MISSION
OIG assists USDA by promoting effectiveness and integrity in hundreds of Department programs. These programs encompass
a broad spectrum, involving such areas as consumer protection, nutrition, animal and plant health, agricultural production,
agricultural product inspection and marketing, rural development, research, conservation, and forestry. They affect our citizens, our
communities, and our economy.



OIG STRATEGIC GOALS
We have focused nearly all of our audit and investigative direct resources on our four goals:
σσ    Strengthen USDA’s ability to implement safety and security measures to protect the
      public health as well as agricultural and Departmental resources.
σσ    Reduce program vulnerabilities and strengthen program integrity in the delivery of benefits to program participants.
σσ    Support USDA in implementing its management improvement initiatives.
σσ    Increase the efficiency and effectiveness with which USDA manages and exercises stewardship over natural resources.
To learn more about OIG, visit our website at
https://www.usda.gov/oig/index.html

How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, D.C.: (202) 690-1622
Outside D.C.: (800) 424-9121
TDD (Call Collect): (202) 690-1202
(Monday-Friday, 9:00 a.m. – 3:00 p.m. ET)

Bribes or Gratuities:
(202) 720-7257
(888) 620-4185
(24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race,
color, national origin, age, disability, and where applicable, sex, marital status, familial status, parental status, religion,
sexual orientation, genetic information, political beliefs, reprisal, or because all or part of an individual’s income is derived
from any public assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should contact USDA’s
TARGET Center at (202) 720-2600 (voice and TDD). To file a discrimination complaint, write to USDA, Director, Office
of Civil Rights, 1400 Independence Avenue, S.W., Washington, D.C. 20250-9410, or call (800) 795-3272 (voice) or
(202) 720-6382 (TDD). USDA is an equal opportunity provider and employer.

May 2011
